<html>
<title> - ASSESSING THE VALUE OF THE NATO ALLIANCE</title>
<body><pre>[Senate Hearing 115-780]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-780

               ASSESSING THE VALUE OF THE NATO ALLIANCE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            SEPTEMBER 5, 2018

                               __________



       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-165 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2


Haass, Hon. Richard N., President, Council on Foreign Relations, 
  Washington, DC.................................................     4
    Prepared Statement...........................................     7


Burns, Hon. R. Nicholas, Former U.S. Permanent Representative to 
  NATO and Under Secretary of State for Political Affairs, 
  Harvard University, Cambridge, Massachusetts...................     9
    Prepared Statement...........................................    11


Sloan, Stanley R., Professor and Author, Middlebury College, 
  Middlebury, Vermont............................................    15
    Prepared Statement...........................................    16

                             (iii)        

 
                       ASSESSING THE VALUE OF 
                           THE NATO ALLIANCE

                              ----------                              


                   Wednesday, September 5, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:00 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker, Risch, Rubio, Johnson, Gardner, 
Young, Barrasso, Menendez, Cardin, Shaheen, Coons, Udall, 
Murphy, Kaine, Markey, and Merkley.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    And I want to thank our witnesses for being here with us. 
It is a very important hearing. I know there is a lot of noise 
this morning going on in Judiciary, but this is a very 
important topic. We thank you for rescheduling. I know we had 
hoped to do it before and the Senate schedule changed. But we 
are glad to have three such distinguished witnesses.
    As our members know, this is the third in a series of 
hearings on Russia, with today's hearing assessing the value of 
the North Atlantic Treaty Organization.
    In a strong bipartisan manner, this committee has expressed 
support for our NATO allies and reaffirmed the U.S. commitment 
to the transatlantic partnership.
    I know most members of this body believe, like I do, that a 
strong NATO is essential, especially given the level of 
aggression from Russia not seen since the Cold War.
    Unfortunately and the reason we are here today is that in 
recent months the value of this critical alliance has been 
repeatedly questioned. The recent NATO summit was, in my view, 
a low point in that regard.
    While I strongly support the notion that all NATO 
countries, especially Germany, need to meet the 2 percent 
requirement for spending on defense, at the same time, a 
weakening of the alliance is not in U.S. national interests.
    And by questioning the very premise of NATO, harshly 
rebuking individual member states, purposely using false 
information in an effort to turn public opinion against the 
alliance, and casting doubt on our commitment to Article 5, in 
effect inviting our rivals to test it, NATO is undoubtedly 
weakened. And, of course, this in turn plays right in the hands 
of Vladimir Putin.
    Today I hope we can set the record straight and provide the 
American people with a true understanding of this important 
alliance. We will go into these issues in greater detail as we 
hear from our witnesses, but I would like to frame our 
conversation starting with a few facts.
    Since 1949, NATO has been a vital block of American 
security. It has linked the U.S. with Europe and Canada through 
mutual defense, shared interests, and basic values.
    Our partners stood ready during the height of the Cold War 
and stood with the United States following the September 11 
attacks on our nation, the only time in the 69-year existence 
of the alliance that Article 5 has been invoked.
    Let me repeat. Article 5 has been invoked once in 69 years, 
and it was in response to an attack on the U.S. homeland.
    Now, in regards to funding, here is the reality.
    We spend less than 1 percent of our overall defense budget 
on NATO itself. And even if we were to add up all of the costs 
associated with the European security, our forward presence, 
missile defense, and security assistance, it totals just 5 
percent of our defense spending.
    But it is true that not all of our NATO allies are meeting 
their commitments, which is why I support the administration 
urging our NATO partners to commit more resources to defense.
    So the bottom line is, yes, some of our allies need to step 
up. But at the end of the day, NATO is a very good investment 
for U.S. national security.
    I think Secretary Mattis understands that. I think 
Secretary Pompeo understands that. And I think many others 
within the administration understand the same.
    I think it is important that we give the American people a 
clear-eyed assessment of NATO, its value, and its relationship 
to our country. I am hopeful that today's hearing will provide 
just that.
    I want to thank the witnesses again for being here. I look 
forward to your testimony.
    And now I will turn to my friend, our ranking member, Bob 
Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. First, thank you 
for convening this hearing on assessing the value of the NATO 
alliance.
    I appreciate all our witnesses as well coming back--well, 
making the arrangements to be here. So we appreciate that very 
much.
    As we will continue to seek information about the debacle 
in Helsinki, I appreciate, Mr. Chairman, your willingness to 
lead a series of hearings on the U.S. policy with respect to 
the Russian Federation.
    NATO has secured peace in Europe since 1949 and has been 
critical to U.S. efforts in places outside of NATO like 
Afghanistan, Bosnia, and Kosovo. It is an alliance based not 
only on security commitments but shared values among its 
members of democracy, human rights, and the rule of law.
    In a world where various forces are eroding democracy and 
the rules-based international order, it is a core interest of 
the United States to bolster and strengthen alliances like 
NATO, a guarantor and the cornerstone of peace for Americans in 
the transatlantic region for 70 years.
    Unfortunately, President Trump clearly takes a different 
view. He has questioned the value of the alliance to the United 
States and said that NATO, quote, ``was helping Europe more 
than it was helping us.'' He has repeatedly dismissed and 
undermined the merits of the Article 5 mutual defense clause, 
intimating that the, quote, ``aggressive country of Montenegro 
with its 600,000 people could lead the United States into World 
War III.'' And some of his comments regarding NATO have been 
patently false. If we accomplish nothing else this morning, I 
hope this committee can dispel the President's harmful 
disinformation.
    The President has claimed that NATO Secretary-General 
Stollenberg has given him total credit for the rise in NATO 
members' defense spending because the President, quote, said it 
was ``unfair.'' The truth is that defense spending by NATO 
allies has been on the rise since Russia's invasion of Crimea 
in 2014 in reaction to a security threat from Putin, not 
insults and bullying from Trump.
    The truth is that NATO allies continue to work hand in 
glove with United States partners in Afghanistan and other 
places around the world, risking and even losing their lives, a 
sacrifice that the President seems unable to comprehend if it 
is not expressed in dollars and cents.
    The truth is that NATO allies have committed to spending 2 
percent of their GDP on defense, and this defense spending 
comes out of the budgets of individual countries for their own 
militaries. The 2 percent commitment by NATO allies is not 
membership dues nor are they paid into some sort of centralized 
piggybank in Washington or Brussels.
    The communique and some of the decisions coming out of the 
NATO summit were positive and constructive, but those measures 
only go so far.
    Secretary Pompeo made clear last month that the President's 
statements are the policy of our government, and I agree. So 
when President Trump says things that clearly contradict his 
own administration's actions, it undermines their work. And 
worse, it sends mixed signals to our friends and foes alike who 
are likely to hedge their behavior in response to protect their 
interests. This incoherence calls into question what we as a 
country stand for.
    That is why Senator Graham and I included language in our 
Defending American Security from Kremlin Aggression Act, which 
would subject U.S. withdrawal from NATO to a congressional 
vote. I want to thank Senator Kaine for his leadership on a 
similar legislative effort. We must make clear to the 
administration and to our allies that the U.S. commitment to 
the alliance is rock solid.
    Mr. Chairman, to understand the value of the transatlantic 
bonds bolstered by NATO, you need to only know a simple number 
and that is the one that you referred to. And that number is 
one, the number of times that NATO's Article 5 provision on 
collective defense has been invoked by the United States. After 
we were attacked on September 11th, our NATO allies swiftly 
came to our aid after that terrible day and have been alongside 
us ever since.
    One person has been clear-eyed about NATO's value because 
his top priority is to undermine it, Vladimir Putin. His regime 
has grown increasingly hostile towards not just NATO but also 
the principles of democracy, individual liberty, and the rule 
of law on which it is based. Indeed, his regime has staked its 
reputation on antagonizing NATO members and all that the 
alliance represents.
    This committee has taken bipartisan steps recently to send 
a different responsible message to our allies. We stand for the 
rule of law and an international order based on liberal 
democratic values. We stand for security alliances among 
democracies based on mutual defense against our enemies. We 
stand against dictators that invade their neighbors with 
soldiers and cyber-attacks, and we stand with our allies and 
friends through thick and thin.
    I look forward to hearing from our distinguished witnesses 
today about their thoughts on what more this body can do to 
concretely embody those values.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Our first witness today is the Honorable Richard Haass, 
President of the Council on Foreign Relations. He has been here 
many times before us.
    Our second witness is the Honorable Nicholas Burns, who has 
also been before us many times, former U.S. Permanent 
Representative to NATO and Under Secretary of State for 
Political Affairs.
    Our third witness is Mr. Stanley Sloan, a non-resident 
senior fellow at the Scowcroft Center for Strategy and Security 
at the Atlantic Council.
    We thank all three of you for being here. I know that each 
of you knows if you have any written materials, we would be 
glad to enter them into the record. If you would not mind 
summarizing in about 5 minutes, we would appreciate it. We are 
thrilled that you are here. And with that, if you would begin, 
Mr. Haass, we would appreciate it.

   STATEMENT OF HON. RICHARD N. HAASS, PRESIDENT, COUNCIL ON 
               FOREIGN RELATIONS, WASHINGTON, DC

    Ambassador Haass. Well, thank you, Mr. Chairman, and thank 
you for this opportunity to testify. It is good to be back 
before this committee where I am shocked to say I began my 
government service 44 years ago now.
    I am also really pleased to be with these two individuals. 
At least two out of three of your choices were first-rate.
    Let me just make clear that my views today are mine alone 
rather than the Council on Foreign Relations, which does not 
take institutional positions.
    Let me say one other thing in the way of introduction. I 
would be remiss if I did not note the passing of one of the 
great men of this or any institution, John McCain. And John was 
a great advocate of the Atlantic Alliance and also of a 
realistic policy toward Russia, and I am sure he would have 
welcomed the hearings that you, Mr. Chairman, and your 
colleagues are holding.
    We meet today in what I would describe as the third era of 
NATO. The first paralleled the Cold War, and it was dominated 
by the effort to deter and to prepare to defend against the 
threat posed by the Soviet Union and the Warsaw Pact. The 
second era followed the Cold War, and it was defined by 
enlargement, the consolidation of democracy in former Warsaw 
Pact countries, and in going out of area. That second era, 
though, drew to a close and the third began with Russia's 
illegal annexation of Crimea and its intervention in eastern 
Ukraine, which gets us to our topic for today.
    And through each of these eras, including now, NATO, as 
both you and the ranking member said, have proven itself to 
have value and substantial value at that. The Cold War stayed 
cold until it ended on terms even optimists had trouble 
envisioning. There has been no armed Russian aggression against 
any NATO member. And as again you both pointed out, NATO allies 
rallied to our side following 9/11.
    Now, I fully expect that European defense spending levels 
and military preparedness will figure prominently today, but it 
is essential that a concern over burden sharing not blind us to 
the reality of benefit sharing. The United States stays in and 
supports NATO not as a favor to Europe, but as a favor to 
itself. NATO membership is an act of strategic self-interest, 
not philanthropy.
    The United States can afford what NATO costs. Total U.S. 
defense spending is less than half the Cold War average as 
measured by a percentage of our GDP. What the United States 
spends on NATO and European defense is but a fraction of that. 
We can have the guns we need without sacrificing the butter we 
want. What this country does with NATO and in the world more 
generally cannot be blamed for our domestic shortcomings. What 
is more, American society could not insulate itself from the 
adverse effects of a world characterized by increasing 
disarray, which would be certain to result if NATO ceased to 
be.
    Central to NATO's continuing relevance is that Russia poses 
an all-too-real threat to what we used to call the West. Russia 
needs to know that the United States and its NATO partners have 
both the will and the ability to respond locally to anything it 
might do. Deterrence is obviously preferable to defense, but 
deterrence is never far removed from the perception that this 
alliance is willing and able to defend its interests. It is 
entirely conceivable that Moscow could seek to test the 
readiness of NATO members to stand by the Article 5 clause. The 
United States also needs to be prepared for the sort of gray 
zone aggression Russia has employed in eastern Ukraine with its 
dispatch of irregular forces and the arming of locals. What is 
required to meet this threat is training along with arms and 
intelligence support so that NATO members near Russia can cope 
with what I would describe as Article 4 and a half 
contingencies.
    The United States never wants to put itself in a position 
where the only response to a challenge is to escalate, whether 
by expanding a crisis in terms of geography or in the type of 
weaponry used.
    Yes, NATO members and Germany in particular should spend at 
least 2 percent of their GDP on defense. But as I am sure both 
of my colleagues will point out, European defense spending 
levels are in fact rising. European members of NATO, along with 
Canada, spend some $300 billion a year on defense.
    But more important I would say and for you to think about 
than how much is spent is how it is spent. There is far too 
much duplication and not nearly enough specialization within 
and across NATO. And European countries must possess a range of 
capabilities along with the ability to get them there and 
sustain them once they are there.
    The U.S. cannot introduce uncertainty as to its commitment 
to NATO. Alliances are about collective defense, that an attack 
on one is an attack on all, and any doubt as to U.S. 
reliability risks encouraging aggression and increases the 
inclination of countries to accommodate themselves to stronger 
neighbors. A failure to respond to clear aggression against any 
NATO member would effectively spell the end of the alliance.
    Let me just make a few final points.
    The first is that I believe NATO membership for either 
Ukraine or Georgia should be placed on hold. Neither comes 
close to meeting NATO requirements. Going ahead further risks 
dividing the alliance at this time and adding military 
commitments the United States and NATO are not in a position to 
fulfill.
    Second, the time has come to face the reality and rethink 
our approach to Turkey. We are witnessing the gradual but 
steady demise of this relationship. Turkey may be an ally in 
the formal sense, but it is no partner. Nor is it a democracy. 
The Trump administration is right to have confronted Turkey 
over the detention of an American pastor, but its focus is too 
narrow and with tariffs it chose the wrong response.
    We also need to rethink Afghanistan. We need to rethink our 
policy ambitions and limit our policy ambitions to building 
government capacity and limiting the ability of terrorists to 
base themselves there. Extending government control over the 
whole of the country or creating conditions for peace are 
likely to be beyond reach.
    Let me make two final points, and then I will stop.
    It is important to recognize that NATO cannot survive in a 
policy vacuum. It is part of a larger U.S.-Europe strategic 
relationship. There is no economic or strategic justification 
for a trade war. The overuse of sanctions and the overuse of 
tariffs set back U.S. economic and strategic interests alike. 
There are other better options for advancing our economic and 
trade interests across the Atlantic.
    The EU, the European Union, is a friend; not a foe. It is 
the best partner available to the United States for tackling 
the full range of global challenges that define this era. It 
also remains an essential partner for containing Iran.
    And a final point. I began with a historical point. I want 
to end with one. No one should assume European stability is 
permanent. To the contrary, history shows that the last 70 
years are more exception than rule. It should be the objective 
of the United States to extend this exception, given the many 
benefits and the costs of European instability. And a strong 
NATO in the context of a robust European relationship is the 
best way to do just that.
    Thank you again, Mr. Chairman, for this opportunity.
    [The prepared statement of Ambassador Haass follows:]

               Prepared Statement of Dr. Richard N. Haass

    Mr. Chairman: Thank you for this opportunity to appear before the 
Committee on Foreign Relations on the subject of the value of the NATO 
alliance. I want to make clear that my views are mine alone and that I 
am not speaking for the Council on Foreign Relations, which takes no 
institutional positions on matters of policy.
    I admit to being somewhat surprised that this is the subject of a 
hearing just now. Although the question of NATO's value was 
understandably raised at various times over recent decades, I would 
have thought the Russian interventions in Ukraine and Georgia, its 
interference in the elections and referenda of various NATO members, 
and NATO's role in the Balkans, Afghanistan, Iraq, and its other ``out 
of area'' contributions would have settled the question. But the one 
thing we should have learned from recent months and years is to be 
careful of assumptions and of taking anything for granted. That is one 
reason why this hearing is well-timed, as Congress has the ability to 
be a much-needed classroom for the country.
    Let me take a step back before I address today's topic directly. We 
are in what can best be understood as the third era of NATO. The first, 
which began with NATO's inception and ran for four decades until the 
end of the Cold War, was dominated by the effort to deter and to 
prepare to defend against the threat that the Warsaw Pact posed to the 
Atlantic democracies. NATO was also a vehicle for promoting stability 
and trust among the countries of Western Europe and North America, 
seeking to eliminate the dangerous impulses that had twice before in 
the previous half-century triggered war at great cost to themselves and 
the world. In all this and more NATO succeeded. The Cold War stayed 
cold until it ended on terms even optimists had difficulty envisioning.
    Success, however, created its own questions, including whether NATO 
was still needed and, if so, in what form and with what functions. The 
answer was that NATO still had a role to play, one defined by 
enlargement and the consolidation of democracy in former Warsaw Pact 
countries and, additionally, in going out of area to meet shared 
security challenges beyond the formal treaty area. Actions were 
undertaken in the former Yugoslavia, Afghanistan, and Libya, albeit 
with decidedly mixed results.
    Another function for NATO in this, its second era, was to stay in 
business so as to provide a hedge against the unavoidable uncertainty 
as to what sort of an international actor Russia would turn out to be. 
Enlargement was successful in that NATO membership increased from 16 to 
29 countries and we have seen no armed Russian aggression against any 
NATO member. Whether NATO enlargement contributed to Russian alienation 
and the emergence of a Russian threat to Europe makes for an 
interesting historical inquiry, but it is just that. We are where we 
are.
    What is most relevant for our purpose here today is that NATO is 
now in its third era, one that began in earnest with Russia's illegal 
annexation of Crimea and its intervention in eastern Ukraine in 2014. 
What was a possible Russian threat had become an actual one. At the 
same time, out of area challenges have not gone away. Democracy has 
proven difficult to promote in new members and appears to be struggling 
in some older ones. All of which leads us to the questions of the day: 
Does NATO still have value? If so, how much? And what can be done to 
increase that value?
    The answer to the first question is that yes, NATO continues to 
have value, and substantial value at that. I expect that European 
defense spending levels and military preparedness will figure 
prominently in today's conversation, but it is essential that a 
legitimate concern over burden-sharing not blind us to the no less 
important reality of benefit-sharing. The United States stays in and 
supports NATO as a favor not to Europeans but to itself. NATO 
membership is an act of strategic self-interest, not philanthropy.
    NATO members rallied to our side in the aftermath of September 11. 
The United States has gained in important ways from a Europe that has 
been largely peaceful, stable, prosperous, and democratic. NATO members 
have proven to be dependable, capable partners out of area; the troops 
of NATO members have fought and died alongside American troops in 
Afghanistan. Out-of-area missions in and around Europe, the Middle 
East, and North Africa will be required for the foreseeable future 
given the resilience of terrorists and the need to enhance the 
capabilities of local states fighting them. Here I would concur with 
what was agreed on by all NATO members a little over a month ago, that 
``the Alliance remains an essential source of stability in an 
increasingly unpredictable world.''
    One piece of good news is that the United States can afford what 
NATO costs. Total U.S. defense spending, which helps us to meet our 
global responsibilities and protect U.S. interests worldwide, is less 
than half the Cold War average as measured by percentage of GDP. What 
the United States spends on NATO and European defense is but a fraction 
of that. We can have the guns we need without sacrificing the butter we 
want. NATO and what this country does in the world more generally 
cannot be blamed for the sorry state of much of our infrastructure, the 
poor quality of many of our public schools, or our ballooning public 
debt. What is more, American society could not insulate itself from the 
adverse effects of a world characterized by greater disarray, something 
certain to result if NATO ceased to exist.
    Central to NATO's continuing relevance is that Russia poses an all-
too-real threat to what we used to call the West. It has modernized its 
conventional and unconventional military capabilities and demonstrated 
both an ability and a willingness to use them effectively. In Georgia, 
Crimea and eastern Ukraine, and Syria, Russia has resorted to both 
conventional and hybrid warfare to pursue its interests. Russia has 
also demonstrated the ability and will to employ cyber-related tools to 
influence and disrupt its neighbors, other European countries, and, as 
we know, democracy in this country.
    Russia needs to know that the United States and its NATO partners 
have both the will and the ability to respond locally to anything it 
might do. Deterrence is obviously preferable to defense. But deterrence 
is never far removed from the perception that the Alliance is willing 
and able to defend its interests. This argues for the stationing of 
military forces in and around areas that Russia might claim or move 
against, something that translates into maintaining sizable U.S. ground 
and air forces in Europe. In light of the current political discord 
within and among Western democracies, it is entirely conceivable that 
Moscow could seek to test the readiness of NATO members to stand by the 
Article 5 common defense clause. The United States needs to be prepared 
as well for the sort of ``gray zone'' aggression Russia has employed in 
eastern Ukraine, with its dispatching of irregular forces and arming of 
locals. Such tactics may not trigger NATO's Article 5, but they 
threaten stability all the same; what is required is training along 
with arms and intelligence support so that those NATO members near 
Russia can cope with such ``Article 4 \1/2\'' challenges should they 
materialize.
    Capabilities can be further enhanced through the regular dispatch 
of visiting forces and frequent military exercises. Such activity also 
underscores commitment and concern, thereby reassuring friends and 
allies and signaling actual or would-be foes. It is important that all 
this be done locally in areas of potential threat and with conventional 
military forces, as the United States never wants to put itself in a 
position where the only response to a challenge is to escalate, whether 
by expanding a crisis in terms of geography or in the type of weaponry, 
or to acquiesce to the results of successful aggression.
    All that said, there are other steps to be taken to increase the 
value of the Alliance. Yes, NATO members, and especially Germany, 
should spend more on defense, and we should continue to hold NATO 
members to the commitment they made at the Wales Summit to spend at 
least 2 percent of GDP on defense. But it is important to take note 
that European defense spending levels are rising and that European 
members of NATO along with Canada spend some $300 billion a year on 
defense, in the process covering the bulk of the costs of the Alliance. 
The United States covers only about 20 percent of NATO's common budget 
and, although U.S. defense spending as a share of GDP is well above the 
NATO average, a relatively small portion of U.S. expenditure goes to 
European defense.
    Even as we press our allies to spend more on defense, we should 
appreciate that more important than how much is spent is how defense 
dollars and euros are spent. There is far too much duplication and not 
nearly enough specialization within and across NATO. If NATO is to be a 
pool of resources that can meet challenges within and outside the 
treaty area, European countries must possess a range of capabilities 
along with the ability to get them there and sustain them once there. 
The European Union's ongoing efforts to reform its defense and 
procurement policy hold promise on this front.
    As it seeks to increase and rationalize allied contributions to 
common defense, the United States cannot introduce uncertainty as to 
its commitment to NATO. Alliances are about collective defense, that an 
attack on any member, even the smallest and weakest, is an attack on 
all. Any doubt as to U.S. reliability will only encourage aggression 
and increase the inclination of countries to accommodate themselves to 
a stronger neighbor. A failure to respond to clear aggression against 
any NATO member would effectively spell the end of NATO. None of this 
is inconsistent with the reality that much of what NATO now does lies 
outside Article 5 and that we have to expect such undertakings will 
rarely if ever involve all members of the Alliance.
    That Russia has emerged as a threat is not to argue for a one-
dimensional policy toward that country. To be sure, we should push back 
where necessary, and not only with sanctions, when Russia violates a 
norm we hold to be central or puts at risk U.S. interests. But we 
should also be open to diplomacy and cooperation where possible and 
explore the potential of reviving the arms control dimension of the 
relationship.
    NATO membership for either Ukraine or Georgia should be placed on 
hold. Neither comes close to meeting NATO requirements, and going ahead 
risks further dividing the alliance and adding military commitments 
that the United States is not in a position to fulfill. Beyond making 
good on the pledge to make the Republic of North Macedonia NATO's 30th 
member, the United States and NATO would be wise to focus on meeting 
existing obligations before taking on new ones.
    The time has come to face reality and rethink our approach toward 
Turkey. What we are witnessing is the gradual but steady demise of a 
relationship; Turkey may be an ally in the formal sense but it is no 
partner. Nor is it a democracy. The Trump administration is right to 
have confronted Turkey over the detention of an American pastor, but 
its focus is too narrow and with tariffs it chose the wrong response. 
We should reduce our dependence on access to Turkish military 
facilities, deny Turkey access to advanced military hardware like F-
35s, and stand by the Kurds in Syria in the fight against ISIS. We may 
well have to wait out President Erdogan and seek to rebuild relations 
with Turkey once he no longer wields political power.
    We would also be wise to rethink Afghanistan. There are situations 
in which ambition is called for. There are other situations in which 
even a modest course of action can prove to be ambitious. Afghanistan 
surely qualifies as an example of the latter given its internal 
divisions and Pakistan's provision of a sanctuary to the Taliban. We 
should design a policy around building governmental capacity, holding 
Kabul and the other major cities, and limiting the ability of 
terrorists to base themselves in the country. Extending governmental 
control over the whole of the country or creating conditions for peace 
are beyond reach. Afghanistan is better understood as a situation to be 
managed than a problem to be solved. This argues for a continued but 
sharply limited U.S. and NATO effort there.
    NATO cannot survive much less thrive in a vacuum. It is part and 
parcel of the larger U.S.-European relationship. There is no economic 
or strategic justification for the sort of trade war the United States 
has launched. The overuse of sanctions and tariffs will set back U.S. 
economic and strategic interests alike. The EU is a friend, not a foe. 
European countries offer the best set of partners available to the 
United States for tackling global challenges ranging from how best to 
regulate cyberspace to mitigating and adapting to climate change to 
reforming the global trade system. They also remain an essential 
partner for containing Iran, a reality that argues for less 
unilateralism on our part and more coordination across the Atlantic.
    I said at the outset of my remarks that we should be careful with 
assumptions. No one should assume European stability is permanent. To 
the contrary, history plainly shows that the last 70 years are more an 
exception than the rule. It should be the objective of the United 
States to extend this exception until it becomes the rule. A strong 
NATO in the context of a robust U.S.-European relationship is the best 
way to do just that.
    Thank you again for this opportunity to meet with you today. I look 
forward to your comments and questions.

    The Chairman. Thank you. Thank you very much.
    Secretary Burns.

  STATEMENT OF HON. R. NICHOLAS BURNS, FORMER U.S. PERMANENT 
    REPRESENTATIVE TO NATO AND UNDER SECRETARY OF STATE FOR 
POLITICAL AFFAIRS, HARVARD UNIVERSITY, CAMBRIDGE, MASSACHUSETTS

    Ambassador Burns. Thank you, Mr. Chairman, Mr. Menendez, 
members of the committee. Thank you for the opportunity to be 
here. I am very pleased to be with Dr. Haass and Dr. Sloan.
    You have asked three questions this morning. The first is 
what is NATO's value to the United States? I agree with both of 
your opening statements. It is our vital alliance, and it is 
still relevant and the key factor in trying to contain Russian 
power. And we have seen that emerge in Georgia, in Crimea, and 
eastern Ukraine over the last 8 years.
    I also think of NATO allies as indispensable force 
multipliers for the United States and for American power. And 
in a way, they represent the power differential between the 
United States and Russia and with our East Asian allies, the 
United States, and China. We have allies who will fight with 
us, and we can depend on them, and the Russians and Chinese do 
not.
    The NATO allies also help us project force from a forward 
deployed position in Europe. Think of Ramstein. A lot of you 
have visited these bases. And Aviano in Souda Bay and Rota in 
Spain. That is how we prosecute the war in Afghanistan and go 
after ISIS and the Taliban and other terrorist groups.
    And as Richard said, most of the NATO members are also EU 
members. And if you think of the great transnational threats 
that we are facing, that our kids are going to face, climate 
change and terrorism and pandemics and crime and migration, we 
need these countries on our side, and they largely are on our 
side.
    And I think most importantly--I have just come back from 
visiting five European countries this summer--the key issue in 
Western and Eastern Europe is will democracy survive. It is 
under challenge from an anti-democratic populace. The NATO 
allies are greatest defenders in defending democracy and 
challenging the autocrats in places like Poland, inside the 
Polish Government, inside the Italian Government, and in 
Hungary itself. So we are stronger with them than without them.
    Your second question, Mr. Chairman and Mr. Menendez, was on 
President Trump's policy towards NATO. I am concerned. I 
believe we are witnessing the greatest crisis of American 
leadership in NATO since 1949. It is one thing to push the 
allies to meet their security commitments. President Trump has 
been right to push the NATO allies on defense spending, and he 
has made some progress. But it is quite another for an American 
President to call NATO obsolete on the campaign trail in 2016, 
to then refuse in 2017 to reaffirm the Article 5 commitment on 
the President's first visit to NATO headquarters, and then 6 
weeks ago to be publicly, I would say, shockingly ambivalent 
about whether or not the United States will defend Montenegro, 
our NATO ally, if it is threatened by the Russian Government.
    Words matter in diplomacy. Our ability to deter Russia 
depends on the Kremlin believing that the United States 
President--and the United States President is NATO's leader--
that he or she will stand up to Russian aggression and defend 
our smaller allies. That is now in doubt in Europe after the 
Helsinki Summit.
    President Trump is the first American President in NATO's 
history to equivocate on our security commitment to the NATO 
allies. And so our reliability and credibility and our 
commitment to the alliance are being questioned by our best 
friends and by our closest friends.
    To make matters worse, the President has been supportive of 
anti-democratic leaders in Hungary and Poland, while being 
consistently critical publicly of Prime Minister Trudeau and 
Prime Minister May and Chancellor Merkel. The result is that 
President Trump objectively is viewed by the European 
leadership as weak and unreliable, the opposite of Eisenhower 
and JFK and Reagan and the Bushes and Obama.
    It is a crisis of confidence that focuses squarely on your 
third question, what should Congress do; it is imperative that 
Congress--and I think all of us hope on a bipartisan basis--to 
revive and reaffirm the American commitment to NATO. The 
resolution that you passed in the Senate just before the 
Helsinki Summit I know was welcomed and positively received in 
Europe. The proposed McCain-Kaine bill would be a fitting 
tribute to the late Senator John McCain, as would the Graham-
Menendez bill, as would Rubio-Van Hollen. I know you are 
considering lots of bills to strike back against the Russians, 
to stand up to them, but also to reaffirm our support for NATO 
and not for a diminution of our role in NATO.
    I would say, Mr. Chairman, we need your leadership 
desperately given the hole that the administration--the 
President I should say--has dug for the United States with our 
strongest alliance.
    A final thought, and let me close on this.
    I was U.S. Ambassador to NATO on 9/11 for President George 
W. Bush. When we were attacked, our allies, led by the 
Canadians, let me know at NATO headquarters that afternoon that 
they would defend us, that they were ready to invoke Article 5. 
They did so, as all of us have said, the next morning on 
September 12th. They all went into Afghanistan with us. Our 
partners and allies have suffered 1,100 dead, many more 
wounded. They have pledged to be with us until the day we leave 
Afghanistan. And that to me is the true meaning of this 
alliance and its value to the United States.
    Thank you.
    [The prepared statement of Ambassador Burns follows:]

            Prepared Statement of Ambassador Nicholas Burns

    Mr. Chairman, Ranking Member Menendez and members of the Committee, 
thank you for the opportunity to testify today on the North Atlantic 
Treaty Organization.
    I served as U.S. Ambassador to NATO from 2001 until 2005 during the 
Administration of President George W. Bush. NATO remains our most 
important alliance. It is an irreplaceable asset for the security of 
the United States. We must do everything possible to work with Canada 
and the European allies to strengthen it for the many challenges ahead.
    NATO is facing, however, one of its most difficult crises in seven 
decades. It is not a crisis of military strength or readiness. The 
Alliance is preserving the peace in Europe and containing an assertive 
Russia. It is not a crisis of relevance. NATO troops continue to serve 
in Afghanistan, in the fight against the Islamic State, in preserving 
the peace in Kosovo and in providing security in the Atlantic, 
Mediterranean, Black Sea, Baltic Sea and Balkan regions. It is 
assisting the EU in managing the migration crisis through its maritime 
capacity.
    The allies also remain with us in NATO's most important mission--
the defense of free, democratic countries in North America and Europe.
    The crisis is one of allied trust and confidence in America's 
leadership of NATO. During the 18 months of the Trump Administration, 
the President's personal leadership of NATO has been called into 
question on several key fronts.
    President Trump's repeated public doubts about NATO's importance to 
the U.S. have had a highly negative impact on European leaders and 
European public opinion. For the first time in NATO's seven-decade 
history, there is growing concern in Europe and Canada about an 
American President's commitment to the alliance.
    The U.S. has been the acknowledged leader of NATO since its 
founding in Washington D.C. in 1949. As the strongest ally, the U.S. 
has always played an outsized role within the Alliance. While 
differences among allies are normal and criticism of each other is 
warranted on serious issues, our Presidents also need to project 
confidence in NATO and its member states in order to deter potential 
aggressors such as Russia and provide the leadership that alliances 
need to stick together.
    As a Presidential candidate, Donald Trump called NATO ``obsolete''. 
As President, he refused to confirm his support for NATO's Article 5 
security guarantee at this first NATO Summit meeting in 2017. He has 
suggested that U.S. support for our allies will be conditioned on the 
level of their defense spending. While rightly pushing allies to meet 
their defense budget commitment of 2 percent of GDP, he proposed 
impulsively at the recent Summit a doubling of that goal to 4 percent--
a level the U.S. had never discussed before with the allies and is 
itself unprepared to meet.
    This crisis has been exacerbated by the contrast between the 
President's negative public comments about allied leaders Chancellor 
Angela Merkel and Prime Minister Teresa May with his refusal to utter a 
word of criticism of Russian President Vladimir Putin, NATO's most 
dangerous adversary, before, during or after their recent Helsinki 
press conference.
    The President did not criticize Putin publicly for his annexation 
of Crimea and the destabilization of Eastern Ukraine, Russia's nerve 
agent attack against the United Kingdom, its support for the Asad 
regime in Syria and its cyber assault on our 2016 elections. The 
President's performance in Helsinki was weak and submissive.
    The President was also ambivalent in a prominent interview 
following the Helsinki Summit about whether the U.S. would meet our 
Article 5 security obligations to Montenegro, the smallest and newest 
member of NATO and a victim of an attempted Russian-inspired coup just 
2 years ago.
    Words matter in diplomacy. NATO's ability to deter Russia and other 
potential foes has always rested on the strength and clarity of 
American Presidents starting with Harry Truman. President Trump is the 
first President to equivocate on the issue of America's commitment to 
the security of our allies. Such lack of resolve concerns allies who 
worry the U.S. may not be prepared to defend a NATO member from Russian 
aggression. As the NATO leader, the U.S. President must remain strong 
and clear about our resolve in order to reassure allies and to deter 
political foes.
    Finally, the President is seen by many Europeans as more committed 
to authoritarian leaders in Hungary, Poland and Italy than democratic 
leaders such as Merkel. Based on recent visits to four European 
countries this summer, I believe allied governments are most concerned 
by the rise of extreme anti-democratic forces in their countries. They 
would welcome rhetorical support from the U.S. in their battle to 
preserve the rule of law and democratic freedoms. They have not 
received it.
    The crisis in NATO today is not the first the U.S. has had with the 
allies and likely will not be the last. The U.S. disavowed the actions 
of France and the United Kingdom in the Suez Crisis of 1956. The U.S. 
and some of the allies argued about the deployment of American nuclear 
missiles to Europe in the early 1980s. We experienced a major division 
within the Alliance over the Iraq War in 2003 when I was Ambassador to 
NATO. In none of these crises, however, did the U.S. and the allies 
question each other's basic commitment to NATO itself.
    This is what is happening now. It makes this crisis different from 
those in the past. As a result, a dangerous breach of trust has opened 
across the Atlantic. The former Polish Defense and Foreign Minister, 
Radek Sikorski, a friend of America, summed up the fear of many in 
Europe after the Helsinki Summit when he said publicly, ``We have no 
idea what President Trump would do in a crisis with Russia.''
    Such a situation is a gift to Putin whose strategic aim is to 
weaken NATO and to divide it from within. It has also caused some 
Europeans to prepare for a future without a strong U.S. presence in 
NATO. The debate in Germany has already begun with some outside the 
government advocating the country consider creating its own nuclear 
deterrent if it cannot count on the U.S.
                          the role of congress
    Barring a fundamental change in President Trump's attitude toward 
NATO as well as Russia, this crisis calls for concerted action by 
Congress to revive and reinforce American leadership in the Alliance. 
The Senate's overwhelming vote to reaffirm the U.S. commitment to NATO 
before the recent Summit was received very positively in Europe. The 
recent Menendez-Portman Resolution condemning Russia's annexation of 
Crimea was another important step to assert Congressional authority.
    The proposed McCain-Kaine bill to give Congress a voice and role in 
any decision by the Administration to reduce U.S. force strength in 
Europe or to withdraw from NATO is now a critical next step for 
Congress to take. The Senate ratified the Washington Treaty with a two-
thirds majority in 1949. No President should be able to walk away from 
that commitment unilaterally without the advice and consent of the 
Senate.
    The Graham-Menendez bill would be an effective way to counter Putin 
by strengthening sanctions against Russia and providing greater support 
to democracies at risk.
    These are among the most important measures Congress can take at a 
time when the President's basic commitment to NATO appears so tenuous.
    Congress can also help to convince the American public that NATO 
remains vital for our own security at home. Until President Trump's 
election, most polls showed strong support for NATO among Americans. We 
should be concerned that the President's constant belittlement of NATO 
before American audiences may diminish public support for an alliance 
that cannot be truly effective without the allegiance of our citizens.
                   nato's value to the united states
    Mr. Chairman and Mr. Menendez, you have asked for an assessment of 
NATO's value to the United States. In my judgment, NATO continues to be 
of vital importance to American security interests in five principal 
ways.
    First, NATO is at the core of one of the most significant foreign 
policy accomplishments in American history--the creation of a long-term 
peace in Europe following the close of the Second World War. Because of 
NATO and the emergence of the European Union, Europe is united after 
centuries of division and war. NATO's military strength has been a 
major reason for the absence of war with the Soviet Union and Russia 
since 1949.
    A recent Atlantic Council study reminds that America spent 14.1 
percent of its GDP on defense during the First World War, 37.5 percent 
during the Second World War and 13.2 percent during the Korean 
Conflict. We spend nothing close to those levels now in large part due 
to the great power peace we have enjoyed for over 70 years. NATO has 
been a major factor in that peace.
    And due to the expansion of NATO and the European Union eastward 
after the fall of the Soviet Union, millions of East Europeans now live 
in free, democratic societies--a significant success for U.S. 
diplomacy.
    Second, NATO delivers additional benefits to U.S. military 
objectives and operations beyond our shores.

  <bullet> NATO is at the heart of our defense of North America and 
        Europe from nuclear and conventional threats. British and 
        French nuclear weapons join ours in deterring aggression in the 
        North Atlantic area. Since the late 1940s, every Administration 
        has believed that the best way to defend our country is through 
        American forces forward deployed in Europe with the NATO 
        allies. This strategy remains right for today given Russia's 
        invasion of Georgia in 2008, of Crimea and Eastern Ukraine in 
        2014 and its current pressure on Estonia, Latvia, Lithuania and 
        Poland. NATO remains our primary vehicle for deterring Putin in 
        Eastern Europe.

  <bullet> The NATO allies host a great number of critical bases for 
        U.S. forces--Ramstein in Germany, Aviano in Italy, Rota in 
        Spain, Souda Bay in Greece and Incirlik in Turkey--that serve 
        as a platform for our presence in Europe, as well as for U.S. 
        force projection against terrorist groups in North Africa and 
        the Middle East and for our continued military operations in 
        Afghanistan.

  <bullet> Europe is a critical link in the development of our 
        Ballistic Missile Defense network focused on the Middle East 
        with Turkey, Romania, Poland, Germany, Spain, the Netherlands, 
        Denmark, the UK and other allies all hosting elements of this 
        system.

  <bullet> NATO allies continue to participate in the U.S.-led 
        coalition against the Islamic State in the Middle East.

  <bullet> Many of the allies play lead roles in other counter terror 
        operations such as French forces in Mali supported by the U.S.

  <bullet> In Afghanistan, the NATO allies remain with us in combat 
        operations and in training the Afghan military. Over 1000 
        soldiers from European and other partner nations have died 
        there during the last 17 years.

  <bullet> NATO continues to maintain the hard-earned peace in Kosovo 
        with European troops bearing the large share of the burden. An 
        EU-led force has taken on all of the peacekeeping 
        responsibility in Bosnia, freeing up the U.S. for other 
        activities.

    Third, the NATO allies are among our closest and most supportive 
global partners as we confront the great transnational challenges that 
define this century--the fight against terrorism, the entire complex of 
cyber threats, climate change, the risk of pandemics, mass migration 
and others. The NATO allies and our partners in the European Union act 
together with us on these and other issues. This is of incalculable 
benefit to the U.S. Neither Russia nor China have treaty allies. NATO 
is a significant advantage for the United States when it acts as a 
force multiplier for American interests.
    Fourth, the great majority of the NATO allies are also members of 
the European Union. Every U.S. President has seen the EU as a strategic 
partner. After all, the EU is our largest trade partner and largest 
investor in the American economy. Our combined economic might has been 
a major reason for the effectiveness of sanctions against both Russia 
and Iran in recent years. While we also compete with the EU in trade, 
previous Presidents have worked hard to prevent those differences from 
overwhelming our military and political ties to the EU countries. Let 
us hope that President Trump's recent meeting with the EU Commission 
President Jean-Claude Juncker might ease the trade battles of the last 
few months across the Atlantic.
    Fifth and most importantly, the European countries are our most 
faithful partners in promoting and preserving democracy in the world 
today. The strongest link we share with the NATO allies is one of 
values--our mutual commitment to ``democracy, individual liberty and 
the rule of law'' as the Washington Treaty states. At a time when 
democracies are being challenged around the world and when anti-
democratic populists are on the rise in several European countries, 
this link with Europe is vital to the U.S.
    The sad irony in NATO's current crisis of trust is that the 
Alliance has made significant progress in many areas.
    Alliance defense spending has been on an upward trend since Putin's 
invasion of Crimea in 2014. But there is no doubt that President 
Trump's persistent campaign to convince allies to raise defense 
spending has also had an important impact. And allies such as Germany 
must not only raise their defense spending levels but also reform their 
militaries to achieve a far greater capacity to be more effective 
militarily.
    The recent NATO Summit Declaration noted substantial positive 
progress starting with 4 years of real growth in allied defense 
budgets. Two thirds of the allies have plans to reach 2 percent of GDP 
by the target date of 2024. More than half of the allies currently 
spend more than 20 percent of their military budgets on defense 
technology and research and development. NATO expects that 24 of the 
allies will reach the 20 percent level by 2024.
    In addition, NATO agreed at the recent summit to expand its 
readiness to deploy forces and to create two new commands that should 
add to its operational strength. Together with the deployment of a 
battalion of troops each to Poland, Estonia, Latvia and Lithuania, much 
has been done during the Obama and Trump Administrations to beef up 
NATO's armored presence to deter Russia and other potential foes. 
Secretaries Jim Mattis and Mike Pompeo and Ambassador Kay Bailey 
Hutcheson are all respected for their professionalism and dedication to 
NATO.
    These positive developments have been obscured, unfortunately, by 
President Trump's persistent criticism of allied leaders, his lack of 
criticism of Putin and his publicly expressed doubts about his 
adherence to Article 5 of the Washington Treaty. If the President is 
unwilling to change course and to be a more positive and effective 
leader of NATO, Congress will have the responsibility to take the kind 
of measures I highlighted in the first part of my testimony.
                               conclusion
    I saw the true value of allies first-hand on 9/11 as a new American 
Ambassador to NATO. After the U.S. was attacked in New York and at the 
Pentagon, the Canadian and European Ambassadors to NATO let me know 
within hours that their governments were willing to come to our 
defense. On the following morning, NATO invoked Article 5 for the first 
time in history. The allies stood up to defend us. They decided that 
Osama Bin Laden's attack on the U.S. was an attack on them as well. All 
of them deployed forces to Afghanistan with us. They remain with us 
there today 17 years later. This is the true meaning of NATO for 
America.
    That experience convinced me that, despite our extraordinary power, 
the U.S. is far stronger and better able to protect our own country by 
working in alliance with Canada and the European countries. For this 
reason and others, the U.S. needs to act quickly and resolutely to 
revive, repair and restore American leadership at NATO. Congress can 
help to achieve that worthy aim on behalf of the American people.

    The Chairman. Thank you. Thank you very much.
    Mr. Sloan.

STATEMENT OF STANLEY R. SLOAN, PROFESSOR AND AUTHOR, MIDDLEBURY 
                  COLLEGE, MIDDLEBURY, VERMONT

    Dr. Sloan. Thank you, members of the committee.
    20 years ago I was a senior specialist with the 
Congressional Research Service. I worked closely with this 
committee and with the Senate NATO Observer Group on the first 
round of post-Cold War NATO enlargement. It is my pleasure to 
return today to discuss the alliance that in my opinion remains 
vitally important to American interests.
    U.S. leadership of the alliance has been based on joint 
management of the transatlantic bargain by the Congress and by 
every presidential administration since 1949. From the 
beginning, the congressional partner regularly raised questions 
about the burden sharing issue. In response, both Republican 
and Democratic administrations defended the alliance, even as 
they tried to get the Europeans to do more.
    Until President Trump, all American Presidents have 
remained committed to the North Atlantic Treaty's Article 5 
collective defense provision. The credibility of Article 5 
depends not just on military strength, but also on national 
political will to use it.
    The recent NATO summit declaration emphasized the 
importance of cohesion, unity, and shared goals. But our NATO 
allies now believe that the most powerful and influential among 
them, the United States, is damaging political trust within the 
alliance, seriously weakening the credibility of NATO 
deterrence. I doubt that this is what any member of this 
committee would wish.
    The preamble of the treaty makes it clear that NATO's 
purpose is not just to defend territory but also to defend, 
quote, ``the principles of democracy, individual liberty, and 
the rule of law.'' The defense of these values by NATO nations 
puts political backbone into the liberal international order.
    Today many countries on both sides of the Atlantic are 
facing decisions about what kind of democracy they want. Is it 
liberal democracy based on the North Atlantic Treaty's value 
statement, or is it what has been called electoral democracy in 
which elections take place but the rule of law and individual 
liberties like freedom of speech and freedom of the press are 
limited?
    Decisions by NATO member states, including our own, about 
which path to choose will have at least as much impact on the 
viability of the alliance as will decisions regarding levels of 
defense spending.
    As requested, here is my summary of the benefits of NATO 
membership for our country.
    The North Atlantic Treaty includes our key values and 
therefore reaffirms the legitimacy of the American political 
system.
    NATO brings together like-minded nations that share our 
values and are willing to work with us to defend them.
    The shared interests and values underlying the alliance 
provide a strong coalition for dealing with international 
security issues.
    The U.S. role in the world is strengthened by the fact that 
those countries outside the alliance realize that the United 
States has a coalition in waiting that normally will support 
us.
    Members of NATO provided their support after 9/11 and then 
contributed thousands of troops to the war in Afghanistan, as 
Ambassador Burns has just pointed out.
    The NATO consultative framework, the integrated command 
structure, the day-to-day defense cooperation, and NATO's 
defense planning process facilitate fighting together if it 
becomes necessary.
    The NATO commitments provide a foundation of common trust 
that can serve as a stable starting point for managing 
disagreements when they occur.
    NATO nations provide vitally important base facilities for 
American forces deployed for operations in the Middle East and 
Africa.
    A unified NATO presents a strong front to deter aggression.
    Transatlantic security will continue to depend on effective 
U.S., Canadian, and European cooperation in NATO. European 
political and military unification, as much as we hope for 
that, as an alternative is not likely in the foreseeable 
future.
    The desire for membership in NATO has led many European 
countries to reform their political and economic systems and 
meet other conditions for NATO membership. This stabilizes 
international relations and supports the spread of democracy.
    NATO's Partnership for Peace expands American influence and 
strengthens our national security.
    Finally, in my judgment, there currently is no realistic 
alternative to NATO that would serve U.S. interests as well.
    As with previous generations on both sides of the Atlantic, 
current leaders need to choose. Will we continue to sustain and 
improve the transatlantic alliance, or will we risk a much 
darker future?
    This committee has long played a critical and positive role 
in sustaining NATO and its benefits for the United States. You 
now are challenged once again to choose which role you will 
play in charting the future of America's membership in this 
vitally important NATO alliance.
    Mr. Chairman, thank you for the opportunity to appear 
before you today.
    [The prepared statement of Dr. Sloan follows:]

                 Prepared Statement of Stanley R. Sloan

    Thank you, Chairman Corker, Ranking Member Menendez, and members of 
the Committee, for calling today's hearing. I am happy to have the 
opportunity to talk about the value of the North Atlantic Treaty 
Organization to the United States.
    Twenty years ago, as a Senior Specialist with the Congressional 
Research Service, I worked closely with this committee and the Senate 
NATO Observer Group during consideration of the first round of post-
Cold War NATO enlargement.
    It is my pleasure to return to discuss the alliance that, in my 
opinion, remains so important to American security.
    I will take this opportunity today briefly to fill in a little of 
the historical background to the questions you are addressing, to say a 
few words about NATO as a ``political'' alliance, and then about the 
value of U.S. membership in, and leadership of, the alliance.
    Over the course of seven decades, U.S. leadership of the alliance 
has been based on joint management of the ``transatlantic bargain'' by 
the Congress, particularly the Senate, and successive presidential 
administrations. From the very beginning, the Congressional partner 
regularly raised questions about the persistent burden-sharing issue. 
This questioning began with the initial debate in the Senate on whether 
it should give its advice and consent to the Treaty. The administration 
of President Harry Truman reassured Senators that the European allies 
would contribute to their own defense and that the United States would 
not end up carrying a disproportionate share of the burden.
    As the European states recovered from the devastation of World War 
II, some Senators argued that the Europeans had become capable of 
defending themselves. Montana's Senator Mike Mansfield promoted 
resolutions from the mid-1960s into the early 1970s that sought to 
force administrations to begin withdrawing U.S. forces from Europe. He 
was opposed by several administrations which argued that the American 
NATO commitment was essential to counter the Soviet threat.
    Since 1949, both Republican and Democratic administrations sought 
ways to get the Europeans to relieve the United States of some of its 
NATO burdens. The Congress did most of the complaining while successive 
presidents of both parties urged allies to do more but largely defended 
the alliance and its costs as necessary for U.S. national interests.
    In this area, President Trump has reversed institutional roles with 
his burden-sharing complaints and his threats to abandon key 
commitments in the 1949 Treaty. The Congress and the Department of 
Defense, in response, have largely assumed the roles of NATO-defender, 
while still lobbying for better European contributions.
    One thing remains clear to me: NATO is both a political and 
military alliance. I can't tell you how many times I have heard someone 
erroneously claim that NATO is ``just a military alliance.''
    NATO is a civil alliance with a strong military structure and 
capability that facilitate military cooperation aimed at deterring 
attacks against member states and defending them if necessary. Until 
President Trump, all American presidents have remained committed to the 
North Atlantic Treaty's Article 5 collective defense provision. Article 
5 does not say exactly what member states must do when another member 
is attacked. That is left for the sovereign decision of each state, 
whose decision-making independence is guaranteed by the treaty.
    Article 5 does commit each member nation to regard an attack on 
another member as an attack on itself, and to take ``such action as it 
deems necessary, including the use of armed force to restore and 
maintain the security of the North Atlantic area.'' Allied military 
deployments, training, exercises, plans and weapons acquisitions are 
designed to endow this commitment with hard military reality, 
particularly for an adversary. NATO's Defence Planning Process is a 
historically unique mechanism to share and coordinate plans and 
acquisitions.
    Moreover, the credibility of Article 5 depends not just on military 
strength, but critically on national political will to use it--will 
that must be communicated effectively to both adversaries and allied 
citizens.
    Article 5 does not exist in a vacuum. The overall political 
relationships among member states affect its credibility. The recent 
NATO summit communique emphasized the importance of cohesion, unity, 
and shared goals. But our NATO allies believe today that the most 
powerful and influential among them--the United States--is damaging 
political trust within the alliance, seriously weakening NATO 
credibility in deterrence to adversaries and reassurance to citizens.
    I doubt this is what any member of this committee wishes to happen.
    The preamble of the treaty makes it clear that the purpose is not 
just to defend territory, but also to defend values--this is where the 
``political'' part comes in. The treaty enumerates those values as 
``the principles of democracy, individual liberty and the rule of 
law.'' In recent years, the United States and its allies have added 
``human rights'' to the list. The defense of these values by NATO 
nations puts political backbone into the liberal international order.
    The alliance has not always succeeded on the value side. 
Undemocratic governments have, from time to time, gained power in NATO 
countries. They were tolerated for geostrategic reasons. But they were 
the rare exceptions.
    Today, many countries on both sides of the Atlantic are facing 
decisions about what kind of democracy they want. Is it liberal 
democracy, based on the North Atlantic Treaty preamble's value 
statement? Or is it what has been called ``electoral democracy,'' in 
which governments are elected but power is increasingly centralized? Or 
are they headed toward ``electoral authoritarianism,'' in which 
elections take place but the rule of law and individual liberties, like 
freedom of speech and the press, are strictly controlled by central 
authority.
    Decisions by NATO member states, including our own, concerning 
which path to choose will have at least as much impact on the viability 
of the alliance as will decisions regarding levels of defense spending. 
In fact, authoritarian populists like those currently on the rise in 
the West don't particularly like NATO and tend not to support engaging 
in collective action to provide public goods.
    Moreover, elected officials in sovereign, democratic allied states 
usually seek to get the best security for their populations at the most 
reasonable price. This means that alliances among sovereign states will 
always face questions concerning an equitable balance of costs and 
benefits among the members. This reality caused constant friction 
between the United States and its allies throughout the Cold War.
    The burden-sharing issue was built into the transatlantic bargain, 
emerging in many ways from the foundation provided by contrasting U.S. 
and European geographic realities, historical experiences, and military 
capabilities. The original concept of the alliance was that the United 
States and Europe would be more or less equal partners and would 
therefore share equitably the costs of alliance programs.
    The seeds for a perpetual burden-sharing problem were planted when 
the original transatlantic bargain was reshaped in 1954 following the 
failure of the European Defense Community. The revision of the original 
bargain meant that the alliance would become heavily dependent both on 
U.S. nuclear weapons and on the presence of U.S. military forces in 
Europe to make those weapons credible in deterrence as well as to 
fortify non-nuclear defense in Europe.
    The U.S. burden-sharing complaint took many forms and was 
translated into a great variety of policy approaches between 1954 and 
the end of the Cold War. In the early 1950s, the allies arranged common 
funding of NATO infrastructure costs, such as running NATO civilian and 
military headquarters and building and maintaining fuel pipelines, 
communication systems, and so on. Each ally was allocated a share of 
the infrastructure costs, according to an ``ability to pay'' formula.
    As European nations recovered from World War II and experienced 
economic growth, the U.S. share of infrastructure expenses was 
progressively reduced. However, such expenses were not the main cost of 
alliance efforts. The large expenses were the monies spent by nations 
to build, maintain, and operate their military forces. In this 
category, the United States always outpaced its European allies.
    The administration of President John F. Kennedy in the early 1960s 
sought a greater European contribution to Western defense. Its policy 
optimistically advocated an Atlantic partnership with ``twin pillars'' 
featuring shared responsibilities between the United States and an 
eventually united Europe. The Kennedy presidency also witnessed the 
beginning of the financial arrangements between the United States and 
West Germany designed to ``offset'' the costs of stationing U.S. forces 
in that country. These agreements were renewed and expanded in the 
administrations of Lyndon B. Johnson and Richard M. Nixon to include 
German purchases of U.S. Treasury bonds and, in the 1970s, the repair 
of barracks used by U.S. forces in Germany.
    The U.S. experience in Vietnam, French withdrawal from NATO's 
integrated military structure in 1966, and U.S. economic problems all 
diminished support in the Congress for U.S. overseas troop commitments 
in general and led the Johnson administration to press the Europeans to 
increase their defense efforts.
    This period saw a strong congressional movement, led by Senator 
Mike Mansfield, to cut U.S. forces in Europe. Senator Mansfield 
introduced the first of the ``Mansfield Resolutions'' on August 31, 
1966. The Senate was asked to resolve that ``a substantial reduction of 
United States forces permanently stationed in Europe can be made 
without adversely affecting either our resolve or ability to meet our 
commitment under the North Atlantic Treaty.''
    Senator Mansfield reintroduced the resolution in 1967, 1969, and 
1970, when the resolution obtained the signatures of 50 co-sponsors. 
However, U.S. presidents, Republican and Democrat alike, consistently 
opposed such efforts, and these resolutions and similar efforts through 
1974 failed to win final passage. The Nixon administration, after 
unsuccessfully attempting to get the Europeans to increase ``offset'' 
payments, took a new tack. The Europeans objected to the prospect of 
American troops becoming little more than mercenaries in Europe and 
argued that the U.S. troop presence was, after all, in America's as 
well as Europe's interests. Nixon shifted to a focus on getting allies 
to improve their own military capabilities rather than paying the 
United States to sustain its own. The so-called Nixon Doctrine, applied 
globally, suggested that the United States would continue its efforts 
to support allies militarily if they made reasonable efforts to help 
themselves.
    Congress continued to focus on offset requirements, passing 
legislation such as the 1974 Jackson-Nunn Amendment requiring that the 
European allies offset the balance-of-payments deficit incurred by the 
United States from the 1974 costs of stationing U.S. forces in Europe. 
However, a combination of events in the mid-1970s decreased 
congressional pressure for unilateral U.S. troop reductions in Europe.
    The East-West talks on mutual force reductions that opened in 
Vienna, Austria, in 1973 were intended to produce negotiated troop 
cuts, and U.S. administrations argued that U.S. unilateral withdrawals 
would undercut the NATO negotiating position. Congress turned toward 
efforts to encourage the Europeans to make better use of their defense 
spending, and President Jimmy Carter, in 1977, proposed a new ``long-
term defense program'' for NATO in the spirit of the Nixon Doctrine, 
setting the goal of increasing defense expenditures in real terms 3 
percent above inflation for the life of the program.
    In 1980, Congress, frustrated by allied failures to meet the 3 
percent goal, required preparation of annual ``allied commitments 
reports'' to keep track of allied contributions to security 
requirements. Throughout the 1980s, Congress developed several 
approaches linking the continued U.S. troop presence in Europe to 
improved allied defense efforts. However, the burden-sharing issue was 
never ``resolved.'' In fact, the growing U.S. concern with Soviet 
activities in the Third World put even more focus on the fact that the 
Europeans did little militarily to help the United States deal with 
this perceived threat to Western interests.
    In sum, throughout the Cold War, the United States felt strongly 
that the Europeans needed to ``do more.''
    Although some Europeans agreed that their countries should increase 
their relative share of the Western defense burden, the prevalent 
feeling was that many American criticisms of their defense efforts were 
unwarranted.
    Perhaps ironically, the biggest burden-sharing issue at the end of 
the Cold War was how the allies should work together to deal with non-
collective defense security threats arising beyond NATO's borders, an 
issue that had always been a source of division among the allies. That 
would become one of the biggest challenges for the allies in the 1990s.
    At least in the first decade after the end of the Cold War, the 
United States and all its allies looked for a peace ``dividend'' by 
reducing defense expenditures, taking the opportunity to shift 
resources to other priorities.
    Following the 9/11 attacks, the allies, for the first time in 
NATO's history, invoked Article 5, the North Atlantic Treaty's 
collective defense provision. The allies followed up the Article 5 
actions by contributing thousands of troops to the War in Afghanistan, 
agreeing to establish a NATO command there, and suffering the loss of 
more than 1,000 military personnel.
    In 2014, the Russian annexation of the Crimea and support for 
separatists in the Donbas region of Ukraine produced a dramatic change 
in threat perceptions and, consequently, defense spending commitments. 
The allies agreed at the Wales summit that September to increase 
defense spending to the level of 2% of Gross Domestic Product by the 
year 2024. The recent 2018 summit in Brussels added further defense 
improvement plans to fortify the response to the Russian threat as well 
as to international terrorism.
    That's a summary of the history. Now, here is my summary of the 
benefits our country receives from NATO membership:

  <bullet> The alliance reaffirms the legitimacy of the American 
        political system, as the North Atlantic Treaty rests explicitly 
        on our key values: democracy, individual liberty and the rule 
        of law.

  <bullet> It brings together like-minded nations that, for the most 
        part, share our political values and are willing to work with 
        us to defend them.

  <bullet> The shared interests and values underlying the alliance 
        provide a strong coalition for dealing with international 
        security issues.

  <bullet> The U.S. role in the world is strengthened by the fact that 
        those countries outside the transatlantic alliance realize that 
        the United States has a coalition in waiting that, under most 
        circumstances, will support us.

  <bullet> Members of NATO provided their support when they invoked 
        NATO's collective defense clause in response to the 9/11 
        attacks. They followed up the Article 5 actions by contributing 
        thousands of troops to the War in Afghanistan.

  <bullet> The NATO consultative framework, Integrated Command 
        Structure, day-to-day defense cooperation and NATO's Defence 
        Planning Process facilitate fighting together when necessary.

  <bullet> The NATO commitments provide a foundation of common trust 
        that can serve as a stable starting point for managing 
        disagreements when they occur.

  <bullet> NATO nations provide vitally important base facilities for 
        American army, navy, marine and air force capabilities for 
        operations beyond Europe in the Middle East and Africa.

  <bullet> A unified NATO presents a strong front to deter aggression 
        by adversaries, particularly Russia in today's world.

  <bullet> In theory, a unified Europe should be able to defend itself. 
        But in the real world, political/military unification of Europe 
        is not likely in the foreseeable future and transatlantic 
        security therefore will continue to depend heavily on effective 
        U.S. cooperation with Canada and the European allies in NATO.

  <bullet> The desire for membership in NATO has led many European 
        countries to reform their political and economic systems, 
        resolve differences with their neighbors, and meet other 
        conditions for NATO membership. This stabilizes international 
        relations and supports the spread of democracy.

  <bullet> NATO has provided a framework for active security 
        cooperation with countries that do not meet geographic or other 
        requirements for membership, or do not choose to join. The 
        Partnership for Peace program expands American influence and 
        strengthens our national security.

  <bullet> No practical alternative to NATO that would serve U.S. 
        interests as well has so far been developed and defended 
        convincingly

    In 1984, on sabbatical from the Congressional Research Service, I 
wrote a book entitled NATO's Future: Toward a New Transatlantic 
Bargain. The new bargain that I proposed was a more equal alliance in 
terms of both contributions and influence. It addressed the burden 
sharing issue quite directly by calling on the Europeans to strengthen 
the alliance by coordinating more effectively their defense efforts. I 
cautioned at that time that such improved cooperation would have to 
take place within, not outside, the broad framework of the 
transatlantic relationship
    A lot has changed since then, and I am less optimistic than I was 
then about what might be possible among the Europeans, and what kind of 
leadership the United States would provide.
    I see no chance that the members of the European Union will decide 
to create a full political union anytime in the foreseeable future. In 
my judgment, this would be required before anything like a European 
army or fully unified European militaries could come into being.
    Our allies are making progress toward improving their cooperation. 
The European Security and Defense Policy, the Permanent Structured 
Cooperation (PESCO) and the new European Defense Fund (EDF) are already 
helping promote better military cooperation among the allies.
    Our president's questioning of American commitments to the alliance 
has led Europeans reasonably to wonder if they can rely on the United 
States in the future. If they decide that they can't, their cooperation 
could move toward greater autonomy from the United States, outside of 
NATO and ineffectively coordinated with the alliance.
    Such a development would amount to a total failure of U.S. policy 
that has supported a strong Western alliance for seven decades. The 
Europeans may do more, but the questions about the U.S. commitment may 
lead them to assumptions that would damage what NATO calls ``the 
transatlantic link.''
    As with previous generations on both sides of the Atlantic, current 
generations of leaders need to choose whether we will continue to 
sustain and improve the transatlantic alliance of democracies, of which 
NATO is the most important pillar. Will we choose to defend democracy, 
individual liberty and rule of law, or will we risk a much darker 
future?
    This committee, and the Senate as a whole, have long played 
critical and positive parts in sustaining NATO and its benefits for the 
United States. You now are challenged once again to choose which role 
you will play in charting the future of America's membership in this 
vitally important North Atlantic Treaty Organization.
    Thank you, Mr. Chairman, for the opportunity to appear before the 
committee today.

    The Chairman. Thank you. We thank all three of you again 
for being here with us, and we look forward to the questions 
now. And I will turn to Senator Menendez. I will reserve my 
time for interjections.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your testimony. It is not common that we 
get almost a unified view here before the committee. So it is, 
I think, pretty powerful about the subject matter.
    And the one thing I glean from all of your testimony: it is 
time for Article 1 oversight in a big way.
    So, Ambassador Burns, in your written testimony you 
remarked that the President Trump's repeated public doubts 
about NATO have a highly negative impact on Europe. We have had 
members of the administration here who basically have said do 
not listen to what the President says. Listen to what we do.
    When it comes to NATO, what is the tangible impact of this 
dissonant situation where the President's words belie maybe the 
policy actions of the administration?
    Ambassador Burns. Mr. Menendez, two points.
    One is I think one thing that did not come out in our three 
presentations is that, fortunately, we have had a lot of 
bipartisan consensus between the Obama administration and I 
would say Secretary Mattis, Secretary Pompeo, and Ambassador 
Kay Bailey Hutchison that we should stay in NATO, strengthen 
it, strengthen our true presence in Eastern Europe. I think it 
is good that the Trump administration is now sending arms to 
Ukraine.
    So there have been some positive things done, all of them 
completely now diminished and outweighed by the words of the 
President. And the words matter because ultimately Article 5, 
as well as Article 4, the imminence of an attack on a NATO 
ally, rest on the credibility of the United States. We have 
always been the backbone of NATO since President Truman's time. 
And when President Trump has consistently thrown into doubt 
whether or not he is President at that 3:00 a.m. call would 
back up a NATO ally, it has really undermined the confidence 
that all the Europeans have. And I have been struck by it and I 
have served both parties as a career Foreign Service officer. 
This is not a political statement. I have been struck and 
really saddened by the lack of faith in the United States in 
Western and Eastern Europe on this question. And it is about 
words because words, of course, convey whether or not we have 
the policy in place to deter Russian aggression.
    Senator Menendez. Let me follow up on that. I was disturbed 
but not surprised to read in your testimony that the President 
is seen by many European leaders as more committed to 
authoritarian leaders than democratic ones. And you wrote that 
some would welcome rhetorical support from the United States 
but it is not getting it.
    In the DASKAA bill that I wrote with Senator Graham and 
others who have joined us, we increased funding for programs 
that build democratic resilience across the continent. But I 
would welcome any additional thoughts on how you believe the 
Senate can help to fill the rhetorical void left by the 
President's leadership, particularly as it relates to democracy 
and the rule of law.
    Ambassador Burns. I was really struck. As I mentioned, I 
visited five different NATO ally countries this past summer. 
The degree to which the allied leaders are now focused on the 
battle for democracy inside their own societies. Three of the 
NATO allies survived the 2017 elections, the assault by the 
anti-democratic populace, but they know they will be back. And 
they see President Trump--and Steve Bannon has been all over 
Europe this summer supporting the anti-democratic populace in 
Poland, Hungary, and the Italian Government and now trying to 
organize--this is Bannon--the anti-democratic populace in 
Western Europe. They feel there is zero rhetorical support from 
President Trump for the democrats, small D democrats, whether 
they are Christian democrats or socialists inside these NATO 
ally governments.
    We are a political alliance--and Dr. Sloan pointed this out 
in his written testimony--as well as a military alliance. The 
second sentence of the NATO treaty of 1949 signed in this city 
talks about the rule of law, liberty, and democratic freedoms. 
And so we have a responsibility to back these countries up. The 
President will not do it, and so it is up to the Congress. And 
I very much support the Graham-Menendez bill and the other 
bills that would allow at least our government representatives 
who believe in this to try to strengthen democracy.
    Senator Menendez. Dr. Haass, you said in your testimony 
something I think is very valuable, that there should be a 
conversation about benefit sharing in addition to burden 
sharing. How do we assess the value that membership in the NATO 
alliance has for U.S. national security interests? What are the 
most tangible benefits the U.S. derives from NATO in that 
regard?
    Ambassador Haass. Well, the tangible benefits are, one, we 
got partners in going out of area, places like Afghanistan, 
Libya. Again, whatever you think of the specifics, we are not 
on our own. So we have partners and we have facilitators in 
those areas.
    Secondly, if you think about every global challenge that is 
coming down the pike from how to regulate cyberspace, which is 
the wild west of the modern era, to how to improve the WTO so 
it is a better global trading regime to how to make sure the 
next pandemic does not happen, or if it does happen, its 
effects are not ruinous, who are we going to turn to?
    You know, when I worked at the White House for President 
Bush, the father, every time a crisis happened, national 
security aides would walk into Brent Scowcroft's office with 
telephone numbers. And it would be who he could get on the 
phone with because these are the people who are going to be 
like-minded and able to partner with us. All the telephone 
prefixes--just about--were European because that is where we 
are going to go when the chips are down.
    Or the question you just asked Ambassador Burns. If you 
believe that democracy and markets are valuable to the United 
States--and I believe they are--well, then we should partner 
with the Europeans, the EU, not just promoting them in Europe 
but promoting them globally. There are things we can do in 
energy security. We can down the list. And the most obvious one 
is history shows that an imbalance of power in Europe is the 
greatest direct threat to the welfare of the United States. Two 
world wars were fought over that. The Cold War was waged on 
precisely that as well. That is the most fundamental lesson of 
20th century history.
    Senator Menendez. Thank you.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for coming here, for your service.
    Dr. Burns, I was certainly appreciative of the fact that 
you did mention the sacrifice of our NATO partners in terms of 
over 1,000 lives lost. I think we need to point that out to our 
fellow countrymen as often as possible. It is a priceless type 
of sacrifice.
    I would be interested in your thoughts. You take a look at 
NATO. You take a look at the U.S. You combine our economies. It 
is well north of $30 trillion in terms of size and strength. 
Russia, depending on the calculation, probably less than $2 
trillion.
    Looking back in history, you know, the frozen conflict in 
Transnistria, their invasion of Georgia. We stopped their 
invasion, sent over a couple of cargo planes, a pretty powerful 
signal, was unable to prevent their annexation or their 
takeover of Crimea, their invasion into eastern Ukraine, their 
pervasive propaganda that we do not really counter. What have 
we done wrong? Why does such a large economic group allow--I am 
sorry--such a puny one--I know they got 7,000 nuclear weapons. 
But I would just like to have your evaluation of what have we 
done wrong to allow Putin to have so much power?
    Ambassador Burns. Senator, thank you. And to maintain my 
academic integrity, I have to tell you I am not Dr. Burns. 
Harvard University----
    Senator Johnson. Oh, I am sorry. I mean Ambassador Burns.
    Ambassador Burns. That is okay, but I have to say it.
    Senator Johnson. You are surrounded by two doctors.
    Ambassador Burns. I do not have a Ph.D. unlike my two 
colleagues.
    I think you have asked an important question. Every 
President since President Clinton has been dealing with 
Vladimir Putin. And we know his true colors. We know what his 
strategic ambitions are. He is in relatively good health in his 
mid-60s. We are going to have to contain him as long as he is 
president of Russia. It is the last Soviet-trained generation 
of KGB officers, diplomats and military officers. They are 
still in power, and they have that Soviet mentality.
    So my first answer to you would say moving our battalions 
into Estonia, Latvia, Lithuania, and Poland--President Obama 
did that, and President Trump has reaffirmed it--is the right 
move.
    The European Reassurance Initiative--Congress voted the 
money to strengthen American and NATO forces in the east--is 
the right move.
    But you are also right. We are engaged in a war of ideas 
with authoritarian powers because Putin and definitely Xi 
Jinping, if you read his party speech from last October--they 
believe that their model is superior to ours. And so we engage 
them militarily to deter but we have got to engage them on what 
we know we can win on, that the democratic model is better and 
it is more true to the human spirit. And I do not think in any 
administration we have taken that on as aggressively as we 
should.
    And I feel compelled to say this. I see Secretary Mattis 
doing it, Secretary Pompeo doing it. The President is absent in 
this. The battle right now in Paris and Berlin, in the 
Netherlands, in Belgium is can democracy survive, and the 
President is not involved. So I hope he will engage on that. He 
really should as the NATO leader.
    Senator Johnson. As chairman of the European Subcommittee 
of this committee, I meet with European delegations all the 
time and find myself in the position trying to reassure our 
allies that we do--you know, this branch of government is 
completely supportive. One of the examples I use, which I think 
was quite extraordinary, is we unanimously approved $300 
million of lethal defensive weaponry for Ukraine. It was not 
used in the last administration. A small group of us had dinner 
with President Poroshenko on Friday night. He came in to honor 
Senator McCain.
    To me, Ukraine has to be a top priority. We need to stop 
and push back Putin's aggression there. We need support for 
President Poroshenko. I would just like to have--Dr. Haass, 
maybe you can give us some thoughts on that.
    Ambassador Haass. Well, I agree. We need to push back 
against it. And I think this transfer of defense articles to 
Ukraine was a step in the right direction. Ukraine has to be a 
better partner. I will be blunt. And I have had this 
conversation with President Poroshenko. The anti-corruption 
movement has got to gain traction. There needs to be a 
dedicated institution to deal with those issues.
    I also think being realistic--to get Russia out of eastern 
Ukraine--and that ought to be our goal, the short-term goal. 
Crimea I think unfortunately is a long-term goal to get that 
back. But to get Russia out of eastern Ukraine ought to be a 
short- to medium-term goal.
    We have to think hard about what kind of conditions to be 
created so Putin believes he could leave and there would not be 
reprisals.
    Senator Johnson. Do we not also have to take a look at what 
right now is the alternative to Poroshenko? Listen, stamping 
out corruption is a difficult process. Again, my concern is 
what the alternative is.
    Ambassador Haass. Alternative----
    Senator Johnson. To Poroshenko.
    Ambassador Haass. To him?
    Senator Johnson. Yes. We are going to have the election. 
Right now the polls are not looking real good.
    Ambassador Haass. The last few years in this country have 
taught me to be wary of making political predictions about 
elections.
    Look, Ukraine--I will just be blunt. It is a frustrating 
political culture. The difficulty the elite has in working 
together--let us put aside personalities, but just 
collectively. The whole is clearly less than the sum of its 
parts. And the last decade has been repeatedly frustrating. To 
me it is almost less important over the individual, whether it 
is Poroshenko or somebody else. It is can you get a 
relationship within the government and between the government 
and the opposition so you have a degree of commonality and 
consistency. That has been consistently frustrating in Ukraine. 
Disappointing but true.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, and thank all of 
our witnesses.
    You have all mentioned the service of Senator McCain. So 
let me just start by quoting from Senator McCain. It expresses 
my view. ``For the last seven decades, the United States and 
our NATO allies have served together, fought together, and 
sacrificed together for a vision of the world based on freedom, 
democracy, human rights, and rule of law. Put simply, the 
transatlantic alliance has made the United States safer and 
more prosperous and remains critical to our national security 
interests.'' And I think we are all saying the same thing.
    The challenges today, this hearing, Russia, Russia's attack 
on our democratic institutions and on our national security.
    But as all of you have pointed out, we have problems from 
within. We have problems of countries that are NATO allies that 
are moving away from democratic institutions. We see that 
clearly in Hungary, the signs in Poland, and very notably, as 
has already been pointed out in your testimony, in Turkey. And 
then we have the problems from within with the leader of the 
United States of America and the statements that have been 
made.
    So let me first start as it relates to Russia. A summit 
between the two leaders is a clear opportunity for us to 
advance our national security interests, and the Helsinki 
meeting between President Putin and President Trump--Ambassador 
Burns, you have already commented as it relates to the 
Montenegro statement. But how was that summit perceived by our 
NATO allies in regards to our common defense against Russia?
    Ambassador Burns. Well, Senator, you will remember in the 
lead-up to the Helsinki meeting, President Trump was in 
Brussels and was very critical publicly of both Chancellor 
Merkel at a time of real challenge to her government in Germany 
and Prime Minister May at a time when her coalition in the 
conservative party was splintering over the Brexit issue. So 
that was unprecedented in my experience working for both 
Republican and Democratic Presidents. We disagree all the time 
in private but never try to go after another leader 
politically. And I think that sets a stage for--to answer your 
question, the allies were dismayed by those attacks on the two 
leaders, as well as on Prime Minister Trudeau a month before.
    And then to see, at least in the press conference, that the 
President did not raise and had opportunities to the nerve 
agent attack on the UK, the invasion of Crimea, the invasion 
and occupation of eastern Ukraine, the pressure on the Baltic 
countries, and the assault on our elections, the German 
elections, the Czech elections, the Dutch elections, the French 
elections.
    The allies look to the United States for leadership. They 
looked to President Reagan for leadership, President Clinton 
for leadership, and they do not feel they are getting it on 
these issues concerning democracy and the survival of 
democracy. And I think that is the weakest point of the 
administration's policy, and it has produced what I said in my 
testimony, I think a crisis of leadership. The allies are 
openly questioning whether we are leading effectively.
    Senator Cardin. Dr. Haass, I want to follow up on one point 
that you made in your statement in regards to Turkey.
    But first let me make a comment where you say there is far 
too much duplication and not enough specialization in regards 
to the capacity in NATO. I could not agree with you more, but 
it starts with the United States of America. We would not give 
up any of our capacity. So for us to complain about the lack of 
specialization where the United States has been, I think, 
duplicating in defense puts us in a tough position.
    But let me get to my question on Turkey. You raise, rightly 
so, the reliability of Turkey and the fact that their 
government is anything but democratic today. And then you point 
out a couple specifics about not making certain weaponry 
available to Turkey, et cetera. Should we be looking at the 
reality that Turkey really--if today we are looking at 
expansion of NATO and looking at Turkey as a potential member, 
I think there would be very little question as to whether we 
would allow Turkey as a member of NATO. Should we be looking at 
the ultimate decision as to whether they still should be a 
partner within NATO?
    Ambassador Haass. Well, there is no mechanism as I----
    Senator Cardin. I understand there is no mechanism. I 
understand the challenges of a formal----
    Ambassador Haass. My view is we should accept the reality 
that Erdogan's Turkey will not be a partner. So whether they 
are formally a member of NATO, I would simply say put that on 
the back burner. Some day we will have a post-Erdogan period in 
Turkey, and I think the goal of the United States and the 
European members of NATO ought to be to try to revive the 
relationship with Turkey at that point.
    In the meantime, I think we have to take specific measures 
to protect our interests, and that involves everything--and 
this Congress is already involved in it, not transferring the 
F-35's.
    I also think the Pentagon ought to be directed to look very 
closely at alternatives to the dependence on Incirlik. Anyone 
who thinks that we can assume the availability of those 
facilities in most crises where we would want to use it, I 
would say that is simply unwise. I also think it would send a 
useful signal to Turkey in the meantime that we were not 
entirely dependent on access to that facility. So I would like 
to see--essentially come up with a substitution plan. It will 
not be perfect. Turkey has real estate and geography that you 
cannot substitute for entirely. But I believe both as a way of 
protecting our options and to send a signal we ought to find 
ways to be less dependent.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Dr. Haass, you had mentioned that there are things we can 
do on energy security as part of your earlier statement. At the 
NATO summit, President Trump I believe was absolutely right to 
raise the issue of energy security in NATO. He specifically 
talked about Nordstream 2, the natural gas pipeline that the 
Russians are building between their country and Germany. The 
United States opposes the Nordstream 2 pipeline because of the 
detrimental impact and the national security vulnerabilities 
that it creates for our allies, for our partners. I believe it 
threatens the security of Europe and NATO. It makes Europe more 
reliant on Russian gas by undermining the diversification of 
Europe's energy sources, its supplies, its routes. I think it 
is a serious concern because Russia does use energy resources 
as a geopolitical weapon. Nordstream 2 makes Europe, our NATO 
allies more dependent and even more susceptible I believe to 
Russian coercion. It also means a lot more money from our NATO 
allies straight into the Kremlin pockets. So Russia can use 
that money to fund their aggressive actions against Europe and 
other parts of the world.
    So a number of us introduced a piece of legislation in July 
of this year called the ESCAPE Act, Energy Security Cooperation 
with Allied Partners in Europe. It enhances our allies' energy 
security. It helps end the political coercion and the 
manipulations by Russia. And this is what the bill does. It 
directs the U.S. Permanent Representative to NATO to encourage 
NATO member states to work together to achieve energy security. 
It creates a transatlantic energy strategy focused on 
increasing the energy security of our NATO allies and partners, 
increasing American energy exports to those countries. It 
requires the Secretary of Energy to expedite approvals of 
natural gas exports to NATO allies, and it authorizes mandatory 
U.S. sanctions on the development of Russian energy pipeline 
projects such as Nordstream 2.
    So it is in America's national security interest to help 
our allies reduce their dependence on Russian energy. Our NATO 
alliance is strong. I think ending dependence on Russian energy 
will make it even stronger.
    So following up on what you had said that there are things 
we can do on energy security, talk about things and your 
thoughts in terms of what additional actions we can take to 
stop Russia from using its energy source to coerce and 
manipulate our allies and what steps should we and NATO and the 
EU take to end the Nordstream 2 pipeline.
    Ambassador Haass. Thank you, sir.
    Look, Russia has three forms of power at its disposal. One 
is energy, one is military, and one is active measures and 
cyber. And they use all three. As was pointed out, their 
economic weight is negligible. But they punch above their 
weight because of--in terms of energy, I think we have to 
decide what is the best approach. And I would defer to my 
colleagues. They may know about this. But I think it is useful 
intellectually to distinguish between things we do to stop 
Russia and things we do to incentivize the Europeans to go 
elsewhere. One is a negative policy and one is a positive 
policy.
    One of the most important things we have done is the 
decision in this country several years back to allow crude oil 
exports. That to me is one of the best energy security 
decisions we made. Expanding our willingness and capacity to 
export natural gas again would be a major step in the right 
direction.
    I think having this conversation with the Europeans is a 
useful one, about what you call your energy strategy framework. 
It cannot be done on a dime. It cannot be done overnight, but 
the idea of coming up with a long-term goal of moving in that 
direction--that is something I think we ought to be doing. I 
have not read your legislation, the ESCAPE legislation, but the 
thrust of it seems to me to be pointing in the right direction.
    Senator Barrasso. Well, thank you.
    One other thing with NATO and the emerging threats across 
the world. I think it is important that we ensure that NATO has 
the tools and the resources needed to maintain a strong defense 
and military alliance. It is clearly important to our own 
national security. So I am committed to strengthening NATO, 
advancing our shared strategic objectives.
    And I support what the President is doing to encourage our 
allies to fairly share the military and the financial burdens 
within NATO. It is certainly something that Senator McCain 
brought up every time we had visited a number of these 
countries prior to even President Trump's election. So the 
number of allies spending the 2 percent of GDP on defense has 
increased since 2017 since President Trump was elected. The 
administration has worked with NATO allies to bring about the 
largest European defense spending increase since the Cold War. 
We can go through all the statistics.
    Are there additional actions that Congress can take to 
build on these successes and strengthen our alliance within 
NATO?
    Ambassador Haass. Let me just push back a little bit. I 
understand all the emphasis on burden sharing on getting the 
Europeans to do more. It is not new. I remember when, among 
others, Senator Mansfield was pushing that nearly 50 years ago.
    Senator Barrasso. Eisenhower. I mean, you go way back.
    Ambassador Haass. I think it is also important, though, to 
recognize what the Europeans are doing. It is not as though 
they are free riders. They are doing quite a lot. And as we 
were talking before, I would focus much more on how they are 
spending it. There is way too much duplication in European 
armies, not enough with interventionary forces, the ability to 
project and sustain power far afield. So the emphasis simply on 
how much they spend seems to me to be too narrow.
    And I think this is something Ambassador Burns was saying 
also. It is one thing to kind of use this as a hammer on them. 
It is something very different to encourage it in the context 
of an overall relationship where we are not using national 
security provisions and trade authorizations as a way of going 
after the Europeans or first you would agree on what our common 
policy is towards European security dealing with Russia. Then 
it might be less difficult to get some of the European efforts 
in the area of defense spending that we want.
    Senator Barrasso. My time has expired. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    I will have my first interjection. I really appreciate the 
efforts that Senator Barrasso has had relative to us exporting 
LNG and other energy resources we have here. They have been 
outstanding.
    The Europeans, on the other hand, have been here especially 
about Nordstream and Nordstream 2. They look at it as a private 
deal. They look at our LNG cost there as a much higher cost 
than getting Russian gas. And they say they are diversifying.
    So yes, no. We have three people with three different 
sensibilities. Should we do everything that we could, which 
some of these bills that you are talking about do? Should we do 
everything that we can sanctions-wise and otherwise to stop 
Nordstream 2 or not? What should be the U.S. Government policy 
as it relates to Nordstream?
    Ambassador Burns. Mr. Chairman, I would say first I think 
President Trump was right to raise this, introduce into the 
NATO discussions. Every administration going back 20 years has 
opposed this excessive European dependence on Russian gas, 
specifically in Eastern Europe but also Germany.
    I would not support sanctions against the European allies. 
We have got to work with them on lots of other issues, and we 
are already in a hole with them over climate change, over Iran, 
and over NATO. But certainly for the President to use his moral 
power to lean on the Europeans and to try to encourage American 
natural gas exports--I would be in favor of that.
    The Chairman. And the other two of you specifically? No 
comment?
    Ambassador Haass. Again, we have weaponized too much of 
foreign policy with tariffs and sanctions. I just think we are 
overloading the circuits of U.S.-European relations. We will 
cause new problems. We will not solve the differences over 
energy independence or dependence.
    I think what the Senator is doing in terms of making the 
United States and others alternative reliable suppliers--I 
would much rather do it through positives and also be a little 
bit patient. We are going to get the immediate results we want. 
But I think having sanctions against European countries or 
firms that are doing this--my own view is it is overloading the 
circuits of this relationship at a time it is already pretty 
stressed.
    The Chairman. So you would rather use rhetoric than doing 
something in that regard. I mean, I am not criticizing.
    Ambassador Haass. Well, it is not just rhetoric, but let us 
come up with alternative supply arrangements and let us work 
with the Europeans on diversification of energy and supply.
    The Chairman. Well, let us carry it a step further. So 
there are bills here. And I strongly support the NATO alliance. 
That is why we are having the hearing. I vehemently oppose the 
President purposely trying to mislead the American people 
saying that Europeans owe us money, that they are in arrears. I 
mean, that to me was the height of the worst as it relates to 
us demagoguing the issue of our country, the leader of our 
country.
    However, there are some bills here now, and you all say you 
support these bills. But there are bills here that punish 
Russia in advance for election interference, and then there are 
bills that punish them if they do, they lay out what they do. 
So you are telling me you support those? I mean, that is in 
essence what you all have said.
    So that means putting sanctions in place now in one case or 
telling people the sanctions you are going to put in place, 
which by the way have implications. They affect things because 
people believe that there is a likelihood of those going in 
place. Do you all support that? I mean, you all are very 
important people that people listen to. So yes, no. I mean, I 
heard you say you supported it.
    Ambassador Burns. Mr. Chairman, I do not support further 
sanctions against the European allies for the reasons that we 
both suggested. But as I have read some of the draft bills that 
members of this committee are involved in, I would support 
current sanctions and the promise of future sanctions against 
Russia if Russia continues to engineer and assault against our 
midterm elections this year or the 2020 elections because we 
have not yet sent a powerful message to them. Congress can do 
that if the executive branch is not willing to do that.
    Ambassador Haass. Let me just say I have read some of the 
legislation on sanctioning Russia for interference in our 
political systems or those of others. No problem again with the 
thrust.
    I think there were some questions about who would make the 
determination, what was the degree of effort they did, whether 
it had effect or not. So I think there was some wording or 
specific questions.
    But I do not think either Ambassador Burns or I are pushing 
back against the basic idea that Russia ought to be penalized 
for what it did. And there ought to be clear sanctions 
threatened against them as a deterrent, and if the deterrent 
fails, then we ought to follow though. This is a form of war 
they are carrying out, and we would not stand by if they 
carried out other forms of warfare. So we ought to be prepared 
to try to deter and then respond to this form of warfare.
    Dr. Sloan. Could I just add one footnote to that? 
Historically it has been demonstrated that sanctions are not 
effective unless you can get almost universal application. And 
this means that the United States needs its European allies on 
its side when it seeks to employ sanctions against Russia. And 
therefore, I would chime in and agree with my two colleagues 
here that sanctions against our European allies work directly 
against getting their cooperation and imposing the kind of 
sanctions on Russia that might have an effect. That is just a 
little bit of perspective from the woods of Vermont.
    The Chairman. Thank you all.
    Senator Merkley.
    Senator Merkley. Dr. Haass, you referred to the 
consideration of not transferring the F-35's. And that has come 
up here in the context of the S-400, but you referred to it 
more broadly than that. Turkey is the regional maintenance and 
operation hub for the other folks we sell the F-35 to, and we 
co-produce parts in Turkey that go not into their F-35's but 
ones we use more broadly.
    Apart from the S-400, are you advocating that we send a 
strong message even given those complexities?
    Ambassador Haass. Well, you asked the right question, but I 
lean in that direction. I do not have confidence about the 
availability of facilities. I do not have confidence about 
Turkey, whether they enter into the S-400 deal or not, whether 
they would protect sensitive technologies. So to use a phrase 
that Mr. Eisenhower used in a different context, I think it is 
time for an agonizing reappraisal of our relationship with 
Turkey, and I would hold off transferring the F-35's until we 
had essentially a relationship that took into account or policy 
that took into account the new realities of what is going on in 
Turkey and in terms of its foreign policy, including what is 
playing out in the Middle East as we sit here today.
    Senator Merkley. Ambassador Burns, do you share that view?
    Ambassador Burns. We cannot rely on Turkey, the point that 
Richard made, in a crisis. We cannot know whether Erdogan would 
make Incirlik available to the United States military. So we 
have to have alternative plans.
    I think, however, we are going to have to be a little bit 
patient here. Erdogan has made a big power play over the last 2 
years, since the attempted coup of July 2016. But he is by no 
means secure forever. We have seen Turkey go from two military 
dictatorships in the 1980s to democratic governments, now back 
to authoritarianism. It is too important a country for us I 
think to begin to seek sanctions against. We are going to have 
to be patient, not rely on them, but I do not think it is 
inevitable that Turkey will be where it is 5 or 6 or 7 years 
from now.
    So you need institutional relationships, and particularly 
what we have found, I think, in past decades is that the 
relationship between our Joint Chiefs and our European Command, 
our military command, and the Turkish military as a power 
center is very important to maintain. If you begin to sanction 
and you cut off those ties, then I think it probably hurts us.
    Senator Merkley. I could imagine a sequence of events, 
outside of the S-400, if we ban the transfer of the F-35's, it 
could lead to an unraveling of some of the things that are 
slightly holding things together and providing that foundation 
for the future.
    Dr. Haass, you mentioned that Russia might test Article 5. 
What do you think are kind of the top two or three concerns 
about where they might test it?
    Ambassador Haass. Some of their small, weak neighbors, 
whether it is Montenegro or whether it is the Estonias and some 
of the smaller countries there.
    It gets back to a question Senator Menendez asked. Foreign 
policy is about capabilities, but it is also about intentions 
and it is the combination of the two. So people who say watch 
what this administration does not what it says, they only get 
that half right. The capabilities are going up but the 
intentions are heading in the wrong direction. So Putin is a 
calculated risk-taker. He did it in Georgia. He is doing it in 
Ukraine, and he obviously took a big risk and it paid off, a 
fairly low investment, high return operation in Syria. So why 
do we assume that he is done taking risks? And Article 5 would 
be a big risk, but what I call Article 4 and a half, whether he 
would do something akin to what he is doing in eastern Ukraine 
and a NATO member, so it would not quite get to the threshold 
of an Article 5 response but it would still have significant 
implications for the security of a neighbor. I think the odds 
of that happening are real.
    Senator Merkley. Can I interject there because we are 
almost out of time?
    What he is doing in eastern Ukraine is a territorial 
occupation if not directly by Russian troops, certainly a lot 
of Russian support. Would that not be an Article 5 violation? I 
cannot imagine for a NATO member that that would not be.
    Ambassador Haass. You could have something that again was 
blurrier than that where you had ethnic Russians in some of 
these countries and arms could reach them. You are not going to 
have Russian divisions going across the border, but there could 
be, quote/unquote, civilians or others being there in a 
personal capacity advising them.
    Senator Merkley. Well, that is helpful. This all goes to 
the point you are all making, which is why it is so important 
for us to be adamant about Article 5 and about the importance 
of NATO. I never anticipated I would be alive to hear an 
American President attacking NATO as a problem rather than an 
asset or the western economies, the G-7, and so forth. But here 
we are. Unusual times.
    I am out of time, so I will just mention that if I had more 
time, I wanted to ask about Macedonia and I know, Ambassador, 
you were in Greece. And they have reached a deal but the deal 
has not been ratified yet. And then it would take a year and a 
half or more. So we are seeing that I think probably at least 2 
years or more down the line? Yes, thank you.
    The Chairman. Thank you.
    Senator Paul.
    Senator Paul. I think we got very close to making an 
important point, and I am going to try to get to where we 
actually get to the point.
    The new Graham bill on sanctions does have sanctions on 
European interests who have a deal with Russia on the gas 
pipeline. So if you think it is a bad idea to sanction them, 
you are really opposed to the new Graham sanctions bill because 
the Graham sanctions bill in section 236 says any entity that 
does business or invests in any Russian energy project outside 
of Russia. It is a bad idea.
    It gets to a larger question. Is trade a good or a bad 
idea? And I hear from Dr. Haass that generally trade is a good 
idea. I hear from others that trade is a good idea even with 
our adversaries, maybe even more particularly with our 
adversaries. If we are going to wait until China has a perfect 
human rights record and is a democracy and looks like America, 
we will never trade with China. All right? If we are going to 
do the same with Russia, we will never trade with Russia. None 
of this is an excuse to Russian behavior. But, my goodness, you 
have to at least in diplomacy think about what your opponent is 
saying. What is Russia saying? They are saying the new Graham 
bill would be the equivalent of economic warfare.
    We are talking about cutting off pipelines. I see the 
pipeline as a good thing. Interconnectedness between Europe and 
Russia is a good thing. It makes them less likely to fight. Why 
would you want to fight somebody who buys your oil? It is a 
good thing for us to be interconnected. Trade is a good thing.
    And so I think we need to rethink where we are on this. We 
need to think do we have enough sanctions. We have lots and 
lots of sanctions. We need now to ask the question Dr. Haass 
asked. Are we at a point where the overuse of sanctions and 
tariffs will set back U.S. economic and strategic interests?
    So I could not disagree more. But it is important to know 
what is in these bills before we say we are for them because to 
say you are for them but then you are against any sanctions 
that would affect our European allies, that is specifically 
what the Graham will do and it is specifically why the Graham 
bill is a terrible bill that we should not entertain.
    I would like to go to another point, though, and this is 
for Dr. Haass. You mentioned that NATO is in our strategic 
self-interest. And that is a conclusion, and a lot of people 
would agree with you. I think that is a conclusion, though, 
that is so general that maybe could be examined more 
specifically.
    So, for example, if we make the argument is the alliance 
with France and England in our strategic national interest, our 
self-interest, I think you would have a pretty impressive case 
and not a whole lot of pushback. But really Montenegro is not 
France. Macedonia is not England. And I think the question 
really becomes--and I think if it were honestly asked, I think 
we would say they are different and we would say that, well, 
does Montenegro actually increase our national security by 
putting them in NATO, or do they possibly increase our 
strategic risks?
    And I think there are times in our history when we have 
seen alliances that actually cause action and reaction in such 
a way that leads to war. I mean, most historians that look at 
World War I say that alliances were part of the problem and 
that these tripwires and blind allegiance to alliance was 
actually part of the problem of World War I.
    We have been passing resolutions around here like crazy. If 
it is a sanctions bill, it will pass. If it is a bill in 
support of NATO, it passes. So, I mean, there is not really a 
problem with the will of people saying they are behind NATO.
    What I object to, though, is that people say, well, any 
willing aspirant that qualifies should be admitted into NATO. I 
think that dilutes the effect of NATO to a certain degree, but 
I think it also is ignoring basically what the response is from 
our adversaries to this. And I thought George Kennan put it 
very well in 1998 when he said if you expand NATO into Eastern 
Europe, what you will see is a rise of militarism and 
nationalism and aggressive leaders.
    And, Dr. Haass, even though you have been a supporter of 
expanding NATO, you said in 1997, speaking of opponents, that 
opponents of a larger NATO predict that NATO's easterly 
expansion will provoke a hostile Russian reaction, weakening 
the position of responsible forces and strengthening the hand 
of Western nationalists. But you went on to really not agree 
with the opposition. You agreed with expansion.
    But I think there is some point at which it is too much. 
You have admitted that Georgia and Ukraine may be a bridge too 
far at this point. And so really, I think there has to be some 
discussion. Do we want everybody in NATO? Is there no 
limitations to who we will put in NATO? Does it dilute the 
value of NATO? Is it provocative? And people say, oh, you are 
giving credence to Russia's arguments. No, but we have to know 
what our adversaries think. If we want to change their 
behavior, you have to know what they think. They have been 
saying since Boris Yeltsin, who we did like and got along with 
better. Gorbachev, Yeltsin, every one of the Russian leaders 
have said it is provocative to expand NATO.
    So I guess my question to Dr. Haass, is there a difference 
between which countries? Does every country that we admit into 
NATO increase our national security or our strategic self-
interest?
    Ambassador Haass. Thank you, Senator.
    The Chairman. I do not think we have ever had anybody 
perfectly time a 5-minute monologue to end with a question with 
1 second left.
    Ambassador Haass. I am impressed with that.
    It is always dangerous to have someone quoting you against 
yourself.
    One quick point. Interconnectedness is not necessarily 
stabilizing. A lot depends on the balance of it. There is a 
whole theory that trade and interconnectedness--it turned out 
to be before World War I--was going to prevent the world war. 
It clearly did not work. One dimensional or one directional 
dependence is not necessarily--because I think the question 
with Europe and Russia is, is Europe's dependence on Russia as 
a gas supplier--is that per se good, or might Russia exploit 
that dependence for its own geopolitical--essentially take geo-
economics and turn it into geopolitics? That is my area of 
concern.
    Look, I think you raise a serious point about NATO 
enlargement, that it is not just an idea, it is a reality. If 
you do it, you undertake not just risks, but obligations. So 
NATO enlargement again is something we have got to undertake 
seriously, and then we have always got to match capabilities 
and willingness to act if we do it. So, no, every country that 
wants to become a member should not become a member.
    For the record, I did not always favor NATO enlargement. 
Indeed, I had questions and I thought there were alternatives, 
whether it was Partnership for Peace. At one point I even wrote 
a memo in the State Department suggesting that we should look 
at the possibility of Russian membership in NATO, and that was 
about as successful as many of my other memos when I ran the 
policy planning staff.
    But we are where we are where we are. And I just think now 
I would not do further NATO enlargement.
    I would say one other point. Russian aggression in Europe, 
whether it is against NATO or not, has consequences. What they 
have done against Ukraine has consequences. So if Montenegro 
were not in Europe and Russia committed an act of aggression 
against it, it is not as though it would not have implications. 
The fact is now Montenegro is in there. Montenegro's ability to 
contribute to NATO is obviously modest, but our willingness and 
ability to defend Montenegro now has, I think, European-wide 
benefits because it shows that the United States takes Article 
5 seriously.
    The Chairman. I appreciate the efforts that are underway to 
push back against what Russia may or may not do--they are 
already doing but may do more of.
    I will say that there is a point here and that is that it 
is very difficult in some of the bills that have been laid out 
to only punish Russia without punishing our European friends. 
And I think that is a well taken point that we have got to 
figure out if we are going to do this in the right way.
    Secondly on the NATO issue with Turkey that came up 
earlier, I mean, I think to say that they are not really a NATO 
ally and we should just move them aside--I could not agree 
more. There is no way we would let them into NATO. No way. But 
we still have the Article 5 commitment. We still have the 
Article 5 commitment. Now, unfortunately for us, they are 
playing footsy with all of our enemies. So the likelihood of 
them having issues is low. But I think that is an issue that 
somehow or another we have got to resolve. It is more than just 
saying they are not really going to be with us because we also 
have the reciprocal agreement.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and thanks to the 
witnesses.
    And I just want to pick up on Senator Paul's question 
because I think it does get to some really fundamental issue. 
Is NATO just about purely what is in the U.S.'s interest? 
Montenegro is a great example. President Trump uses Montenegro 
to kind of denigrate the relevance of NATO. He asked why his 
kids should have to go defend Montenegro in the invocation of a 
collective defense. I got a kid in the military. So I think 
about these issues too.
    If it is just about what does it matter to the U.S. and our 
immediate interests, that is a really good question. But the 
question is, does the promotion of democracy matter to the 
United States? Because at the same time as Russia was attacking 
the U.S. elections in November 2016, they had an assassination 
plot to try to tackle and wipe out the leadership of Montenegro 
if they felt that that leadership would support joining in with 
other democracies of NATO.
    Now, if promotion of democracy means nothing to us, if we 
could care less about whether other nations embrace the 
democratic model or not, if we have given up on the belief that 
that is in fact the best model to help humans achieve their 
aspirations, then you are right. Who cares about Montenegro?
    But if we think that that matters to us--and it should--
then the fact that an authoritarian nation would want to wipe 
out and assassinate their leadership--I do not think we can 
turn a blind eye to that.
    So fundamentally the question about NATO is about U.S. 
interests, but it is also a question about whether the U.S. has 
an interest in democracy as a form of government. And that is 
what we have to grapple with, the immediate interest, but also 
whether we care anymore about democracy as a model that will 
help people achieve their aspirations.
    One of the false dichotomies that I think has been set up 
in some hearings earlier is an administration--and I will pick 
up on Senator Menendez's point--that says do not worry about 
our words, worry about our actions. Now, those words, as you 
point out, are pretty painful. When the President was asked who 
was the biggest foe in the world, as he is over interacting 
with the EU and NATO countries, and he says the EU is our 
biggest foe, those words can be very painful.
    But I would not like to allow a false dichotomy as if it is 
just words because when you use a national security waiver in a 
trade matter against allies, that is more than words. When you 
use a national security waiver against allies whose folks have 
been killed fighting side by side with American troops, when 
you use a national security waiver against Canada when we have 
the largest undefended border in the world with them and their 
troops fight side by side with our troops in every war since 
the War of 1812, we are not talking about an administration 
where it is just some intemperate language but actions that are 
purely supportive.
    There are supportive actions. At NATO there was a 
commitment to set up a new NATO command for maritime security 
in the Atlantic in Norfolk. There is the reconstitution of the 
Second Fleet. Those are some positive actions. But there are 
also many actions that are very, very harmful, and labeling 
allies as national security threats to me is insulting. It 
denigrates the contributions that they have made, and it is 
very significant.
    I want to ask you about the bill that Senator Gardner and I 
and Senator McCain introduced a few weeks ago. And I think, 
Senator Menendez, the Menendez-Graham bill and this Gardner-
Kaine bill I think were the last two bills that Senator McCain 
signed on to cosponsor. He was not cosponsoring a lot of 
legislation in his last few months.
    But this sets aside the question of sanctions and it is 
just about this question of whether Congress should have to 
weigh in to get out of NATO.
    Now, the treaty powers of the Senate are such that we have 
to offer advice and consent for entering into treaties. There 
is a constitutional silence about getting out of treaties. In 
some instances, congressional approval has been either required 
or sought for exiting treaties. In other instances, Presidents 
have gotten out of treaties without Congress. Our bill is just 
about this question about removal.
    Do any of you have problems with the notion that getting 
out of the NATO treaty should require either advice or consent 
of the Senate or an act of Congress?
    Ambassador Burns. Senator, I think that the Washington 
treaty was passed by a two-thirds majority of the Senate in 
1949. The Senate was critical in putting that treaty together 
with Dean Acheson, President Truman. It is the Central American 
alliance in the world. It speaks to our most important 
interests.
    So hypothetically if there was an attempt to remove the 
United States from NATO or to alter our position in NATO in a 
fundamental way, the Congress should be involved in that 
decision. They should speak for the American people, especially 
in an extraordinary time when you have an American President 
acting unlike any previous President of both parties. So I have 
looked at the draft, and I think it makes sense for Congress to 
inject itself into this question.
    Dr. Sloan. If I may, Senator. In my introductory comments, 
I made the point that the Congress has always been a joint 
manager of the transatlantic bargain, along with every 
President since the treaty was signed. And I think it is 
important because there is a role for Congress to play even 
though the Constitution is silent about getting out of 
treaties.
    But I think the Senate in particular does have an important 
responsibility here. The Senate did agree to the North Atlantic 
Treaty by more than a two-thirds majority vote, and for any 
executive to threaten or create the possibility of the United 
States leaving this alliance, I think it is something that the 
Senate is justified in looking at its responsibilities under 
the Constitution and taking action.
    And so I do not have a problem with your proposal. I think 
it is something that makes a lot of sense. Whether 
constitutional lawyers would have problems with it, I do not 
know. I am not one of those. But from a practical point of 
view, I do think the Senate continues to have a responsibility 
for our commitment to this alliance and needs to act on it if 
it is necessary.
    Senator Kaine. Mr. Chair, might I ask Mr. Haass also to 
respond? He was about to join in.
    Ambassador Haass. Very quickly. The mere fact of the 
legislation being passed would send a useful signal that I 
think would be well received in Europe.
    Second of all, I am not a constitutional scholar. I took 
one course in constitutional law in graduate school. But I do 
not understand why exiting a treaty would be any less 
consequential than entering a treaty. In this case, it would be 
every bit as consequential. I think the precedent ought to be 
that however we got into something, we ought not to get out of 
it differently. So it is one thing if a President got into some 
arrangement by executive authority, but if we get into it with 
the full participation of Congress, I believe we should only 
consider getting out it with the full participation of 
Congress.
    Senator Kaine. Thank you.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman, and thanks to the 
witnesses for being here today.
    Obviously, NATO is one of the most, if not the most, 
important security alliance, architecture of our time.
    Following up on Senator Barrasso's questions on Nordstream, 
here is the Nordstream 2 website. The Nordstream 2 pipeline 
will transport natural gas into the European Union to enhance 
security of supply, support climate goals, and strengthen the 
internal energy market. The EU's domestic gas production is in 
rapid decline. To meet demand, the EU needs reliable, 
affordable, and sustainable new gas supplies.
    Is working with Nordstream a reliable, sustainable, 
affordable pipeline? Ambassador Burns?
    Ambassador Burns. It is Russian leverage over Western 
Europe. That is how President Reagan saw it. We had this debate 
now for 35 years with the Europeans. How every American 
President has seen it, you cannot trust the Russians not to use 
it. Just look at what they have done to Ukraine and to Belarus 
and to other neighbors with their gas and oil supplies.
    Senator Gardner. Ambassador Burns, Dr. Haass, I think this 
is the challenge we have with the American people when we talk 
about expending the scarce resources of taxpayer dollars in 
NATO trying to explain to them this is an important 
architecture. This is a key architecture of our security, 
global security, and what we are doing to counter malign 
Russian activities in Europe and beyond, but to explain to them 
why we are doing this and to watch this pipeline come through, 
it is almost as if we have to go back and justify to the U.S. 
taxpayer, hey, you know, I know they are doing something that 
is not good. They are doing something that is going allow 
Russian leverage into their economy, into their energy sector, 
but we got to keep spending this money there. That is a 
difficult message to be sending to the American people.
    Dr. Haass.
    Ambassador Haass. Sure it is a difficult message, and that 
is true of any relationship where you have got to essentially 
argue on balance whether the relationship serves you, you are 
better off with it than not. With every alliance relationship, 
every even informal relationship, there are parts of the other 
country's behavior that gives us heartburn for good reason that 
we cannot defend or agree to. So you think you have to look at 
the totality of U.S.-European relations and you have got to 
look at the best approach for trying to reduce or ultimately 
wean the Europeans on dependence with Russia. And I think what 
you are hearing from Ambassador Burns and myself is questioning 
the efficacy of sanctions at a time when we are already 
overusing that instrument and instead let us sit down and 
figure out a long-term approach with alternative energy 
resources, whether it is gas, oil----
    Senator Gardner. Is the totality of security in Europe 
enhanced by the Nordstream 2 pipeline?
    Ambassador Haass. No. Nordstream detracts from it because 
it gives the Russians leverage.
    Senator Gardner. And that is why I think you see this 
effort by Senator Barrasso, myself, and others to use this 
leverage. I understand concern with sanctions, but at some 
point, we have to get somebody's attention as we are explaining 
to the American people why billions of U.S. taxpayer dollars go 
to this very important security alliance, that we make this 
point as strongly as possible. So thank you for that.
    We have seen obviously March 2018 Russian Government 
attempts to assassinate two Russian nationals in Salisbury. We 
have seen the Russian Federation use of chemical or biological 
weapons in violation of international law. Senator Menendez and 
I have introduced legislation that would require the State 
Department to consider whether or not Russia should be named a 
state sponsor of terror.
    Do you believe or agree that Russia is a malign actor? Do 
you believe their actions have undermined U.S. national 
security, global peace and stability? I think all three of you 
would say yes. Is that correct?
    Ambassador Haass. Yes. Selectively the answer is yes. I 
think the question for you and your colleagues is to say, okay, 
given that and given the full range of interests and issues we 
have with Russia, what is the smartest overall response? Okay, 
there are sanctions, but what else forms the U.S.-Russian 
relation? Where does diplomacy fit in? We want to avoid a 
situation, I would think, Senator, where it is all or nothing. 
So we still want to be able to deal with some issues where 
there is some overlap in U.S.-Russia relations, say, areas of 
arms control. We do not want Russia to do certain things that 
help North Korea. We do not want Russia to do certain things 
that could help Iran. So the issue is how do we respond to the 
particulars given the totality of this relationship.
    Ambassador Burns. Could I just add, Senator, very quickly?
    Senator Gardner. Sure.
    Ambassador Burns. The reason why our sanctions against 
Iran, which Congress voted in 2010 and 2011, were so effective, 
we joined them with the EU. The reason why the Russia sanctions 
after Crimea were so effective in 2014, 2015, 2016, we joined 
them with the EU. So I am for sanctions against Russia. I am 
very reluctant to think that we should sanction Europe because 
we hurt ourselves in this balance, this equation that we have 
always got to keep in mind.
    Senator Gardner. Going back to the question of the 
legislation Senator Menendez and I have introduced, do you 
think it is legislation that would ask the State Department to 
designate or consider the designation of Russia as a state 
sponsor of terror is something we should pursue or not? Dr. 
Haass?
    Ambassador Haass. Without knowing the full consequences--
but look, Russia is carrying out state-sponsored terrorism when 
it is killing these individuals. This is not foreign policy. 
These are acts of aggression against individuals. What is 
terrorism? Traditionally it is the use of military force or 
violence by non-state actors against innocents for political 
purposes. The one exception here is Russia is obviously a state 
actor. So whether it is technically called terrorism or not, 
this is an act of violence committed by a state. Put aside the 
definition of whether it is terrorism or not, we ought to think 
about how we respond to it. And this I think very much we ought 
to do with Europe because they have been the principal targets.
    Senator Gardner. Ambassador Burns, do you think we should 
pass legislation to require the State Department to go through 
a consideration of whether Russia should be named a state 
sponsor of terror?
    Ambassador Burns. And I believe there is a statute, and we 
have been working on it for decades. And Congress and State 
should look into Russian actions that would be defined as 
terrorism, yes.
    Senator Gardner. Mr. Chairman, thank you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for being here.
    I want to go back to the issue that Senator Johnson raised 
about given the size of Russia versus the EU and the United 
States and NATO, how they have been able to be so successful. 
And as we are looking at the future, are we looking at or 
should we be prioritizing conflict against a nation state like 
Russia, or should we be prioritizing conflict that is more in 
the gray zone that includes hybrid warfare? And can you assess 
to what extent NATO is prepared for those two efforts?
    Ambassador Burns. Senator, I think where NATO's comparative 
advantage is strongest is to use our military power to contain. 
Very important that President Obama, Secretary Ash Carter, and 
now the Trump administration have both agreed to move forces 
east. That is the language that Putin understands. I think we 
had a conversation with Senator Paul earlier. The probability 
of a Russian conventional attack on a NATO ally is quite small. 
The probability of an asymmetric intelligence operation is much 
higher. So you guard against the conventional one. We are not 
as good, frankly, at recognizing and then responding under 
Article 4 or Article 5 of the NATO treaty to that asymmetric 
attack. The denial of service attack against Estonia way back 
in March 2007--it took us months to figure out what it was. So 
I think that is where NATO needs to do more work.
    President Obama and the Trump administration have been 
pushing NATO on the cyber end to have a greater appreciation to 
recognize threats and then to respond to them on a cyber-
intelligence basis. And I think that is where the soft 
underbelly is right now of the NATO alliance.
    Dr. Sloan. And one of the positive things that came out of 
the Brussels NATO summit is that NATO is moving ahead in this 
area, much more concentration on it.
    Senator Shaheen. Right. We saw that, which I agree is a 
very positive step.
    So take that into Syria where we have a quagmire that it is 
not clear what U.S. policy is on Syria right now I think, where 
we are seeing Russia and Iran and the Assad regime partnering 
to essentially take over Syria and throw us out of even the 
limited presence that we have. What should we be thinking about 
in terms of Syria?
    Ambassador Burns. Here I would say that we have not had a 
clear strategy since----
    Senator Shaheen. Ever.
    Ambassador Burns. --since 2013. President Obama did not and 
President Trump does not.
    We are in an unfortunate position. The Russians hold most 
of the cards through their alliance with Iran, Hezbollah, and 
Syria.
    We have some leverage. It is the several thousand U.S. 
Special Forces east of the Euphrates. It is our coalition with 
the Syrian Kurds. We ought to use that leverage. If I am 
reading the papers correctly, the administration has decided to 
leave the troops there. I think that is wise. But certainly now 
in a country of 22.4 million people, to have 12 million people 
displaced as refugees or displaced internally, we have got to 
turn our attention to that problem. And that gets to 
immigration and refugee admittance into the United States. It 
gets to forward deployed assistance in the field to the NGOs 
and the U.N. that run the camps that are so essential.
    And I think last--and here there is maybe a glimmer of 
hope--one of our very best diplomats has just been appointed 
the Syria Coordinator, Ambassador Jim Jeffrey. We need to get 
involved diplomatically with the Turks, with the Iranians, with 
the Russians and the Syrians to try to end the war. It is not 
going to end in terms favorable to us. But if there is an 
offensive in Idlib province, the bloodletting, the civilian 
casualties could be even higher than we saw in 2015 and 2016. 
So I think it is the diplomatic play, maintaining our military 
leverage that gives us at least a chance to play a role here.
    Ambassador Haass. I was going to say I think the most 
difficult question, though, if it seems likely we see an 
intensified offensive, Iran, Russia, and Syria against Idlib, 
the question is do we do anything. Are we prepared in any way 
to intervene directly or indirectly through the forces that we 
have been associated with? If we do not, we know what will 
happen. The Syrian Government will reassert authority over its 
entire territory and there will be massive human casualties. If 
we do, it is less clear. If we were to help, it is not exactly 
clear what we would do and it is not exactly clear what the 
consequence is. But time is running out to answer that question 
because this is going to play out rather quickly. But we are at 
that point. This is now the last hurrah of this phase of the 
Syrian civil regional war.
    Senator Shaheen. I agree, and I would argue that we have a 
presence in the northern section of Syria. That gives us some 
negotiating ability that we should continue to support.
    I know I am out of time, but I want to get to the 
Afghanistan question, Dr. Haass, because General Nicholson 
retired this week, and when he did, he said it is time for the 
Afghan war to end. So how does that end in any way at all that 
provides for some reassurance to all of those lives that were 
lost in Afghanistan that provides us reassurance that it is not 
going to again become a hotbed for terrorist activity?
    Ambassador Haass. I do not think I can give you an answer 
that you are going to like. I do not think the war is going to 
end. I do not believe peace is at hand, and I cannot imagine 
the scenario by which peace would be at hand. I simply do not 
see the unity amongst the Afghan Government and the various 
tribes. I do not see Pakistan fundamentally changing its 
policy. I do not see the Taliban changing their stripes. So my 
guess is if your definition of victory is how does this war 
end, I do not think we are ever going to get there. I think a 
more realistic policy is what are the minimal interests we need 
to try to defend in Afghanistan. And it might be keeping Kabul 
under the government, not seeing terrorists set up shop again 
as was done before 9/11. If we have a more modest approach, 
that will be plenty ambitious. But I think if our idea is to 
somehow have a formal peace or have the government win 
militarily and take over the entire country, I think neither 
one of those is realistic.
    If I can say one other thing and it slightly gets at what 
you said, Senator. We have to decide if we are going to look at 
Afghanistan as a place we have now invested for all these 
years, for nearly 2 decades, and we are going to act in certain 
ways because of that, or are we going to treat Afghanistan like 
any other piece of real estate because we have dozens of 
countries where we do not want terrorists to take up shop and 
where we are helping governments through training, arming, 
intelligence. We have a degree of Special Forces presence, some 
direct action against them.
    And I would say the time has probably come to treat 
Afghanistan the same way we treat several dozen other countries 
as simply one of the venues in the world where we have to worry 
about terrorism and that we need to dial it down. We cannot 
have Afghanistan be a place of ambitious American foreign 
policy. So this does not end the war, but I think it does 
reduce the ambition and the cost of it.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Young.
    Senator Young. Well, thank you, Chairman, for holding this 
important hearing.
    I want to thank all our distinguished panelists for your 
thoughtful testimony.
    Mr. Burns, you made a really good point that I think needs 
to be underscored, which is that NATO is a political alliance 
as much as it is a military alliance. And that suggests that we 
can build off of those relationships since we share common 
values and have a foundation for common trust, I think as Mr. 
Sloan put it, and perhaps solve other issues.
    So with that in mind, I would like to explore with you 
whether we might harness the power of the NATO relationship 
historically, even in light of some recent anxiety about the 
strength of that alliance, to deal with predatory international 
economic practices, particularly those by China but also to a 
lesser extent by other countries.
    Dr. Haass, you write, quote, ``the EU is a friend not a 
foe. European countries offer the best set of partners 
available to the United States for tackling global 
challenges.''
    Mr. Sloan, you characterized NATO as a coalition in 
waiting, presumably to solve all manner of different 
challenges.
    Mr. Haass, you indicated that one potential area that NATO 
could be helpful moving forward is our effort to optimize and 
reform WTO and its efficacy.
    So with all these thoughts having been laid before this 
committee by our panelists, I am just going to ask each of you 
to build out on some of your prior thoughts and imagine how we 
might work with our NATO allies or, more broadly, our EU 
partners to deal with predatory economic practices. And that 
could be by establishing a collective economic security 
framework that emphasizes reciprocity, as well as following the 
established norms of a liberal trading order, or through some 
other mechanism. But is it possible for us to operationalize 
this collective effort to deal with a threat shared by all, 
which is these predatory economic practices, and if so, how? 
Mr. Haass, we will begin with you, sir.
    Ambassador Haass. It is sure worth an effort because we are 
now on a trajectory that will be bad for American national 
security and for our economy alike.
    Look, there are all sorts of practices that we and the 
Europeans ought to be working on to try to reduce or eliminate, 
from currency manipulation, government subsidies, which are a 
major trade distorter, obviously intellectual property 
protection. Now, some progress was made in the area of 
improving trade called TPP. And I believe we made a major 
economic and strategic error by pulling back from TPP. We ought 
to have a race to the top, not a race to the bottom. We want to 
have it on our terms, not China's. So one thing would be for 
Congress to push in that direction.
    With Europe, let us begin to design the architecture of a 
transatlantic trade and investment area. We have been talking 
about it for years. Let us not talk to Britain about it 
narrowly as in a post-Brexit scenario. Let us talk to the EU 
writ large about that, and then we can also talk--the last 
round of global trade talks ended in failure, the Doha Round. 
But we ought to be looking at what has to happen at the WTO. 
WTO provides some very useful functions, dispute adjudication 
and so forth. It has been very good at tariff reductions. It 
still has to work on things like non-tariff barriers and some 
of the other issues I mentioned. This ought to be the agenda. 
But unilateralism and tariffs and sanctions I do not think is 
the way to go here.
    Senator Young. Mr. Burns.
    Ambassador Burns. Two quick points, Senator.
    Number one is in my experience, just thinking globally for 
the United States, NATO and the EU are our best partners in 
upholding what you were talking about, this international 
system, economic, political, military, that we have constructed 
since the Second World War. That is fair value. And if I had 
had a chance to respond to the very good question from Senator 
Paul, I would have said that. That is the value to the United 
States. NATO--it is security of Europe and it is that political 
value system that you referred to where we can work with the 
NATO allies, and we have to right now in Europe to preserve 
democracies.
    The EU I think is the instrument on the trade issue, the 
largest trade partner and largest investor. They are our 
competitors--the Europeans--as well as our partners. They would 
have been with us in a big trade action against China if we had 
not hit the Europeans first. And that was I think the problem--
--
    Senator Young. Has the water gone under the bridge? I mean, 
do you think we might revisit that if in fact the President's 
approach does not work? And that is an open question at this 
point. We see that the Chinese economy is somewhat brittle. I 
have my own anxiety, which I have been very clear about, with 
respect to the lack of clarity on the strategic front. But do 
you think it is still a possibility?
    Ambassador Burns. I do. I do not think this option has 
disappeared because long-term what the Europeans have to worry 
about is the same thing we have to worry about: China ripping 
off our intellectual property, China not playing by the rules 
in a way that benefits them and hurts us. They want to be on 
our side. So tactically it makes sense for us to bring them to 
our side and use that combined power of 800 million people, the 
two largest global economies, against China.
    Senator Young. Well, I agree.
    Mr. Sloan.
    Dr. Sloan. I guess my bottom line is that it would be a big 
mistake to try to operationalize NATO in this area. Article 2 
of the North Atlantic Treaty, what is called the Canadian 
article, does promote economic cooperation in resolving 
economic conflicts among member states in the alliance. But 
NATO has never been used for that purpose, and I think trying 
to operationalize the alliance in that way at this point would 
be more disruptive than helpful because it would not respond to 
the security mandate, which is the primary--political and 
security mandate of the alliance, which is the primary role of 
the alliance.
    Senator Young. Do you think this effort would drain energy 
from the NATO alliance if in fact we focused on predatory 
economic practices that injure not just Americans but 
Europeans? I am confused.
    Dr. Sloan. I think the problem, Senator, would be that the 
United States and European allies would all look at those 
practices somewhat differently because they are affected 
differently by those practices. And that could be disruptive 
inside the alliance. I do not have any problem with saying the 
political and military unity of the alliance could be helpful 
in terms of making us recognize that these are issues that we 
need to deal with, but in terms of using NATO to deal with them 
I think would be a mistake. It is always bad for an 
organization to take on a task or set an objective that it 
probably cannot accomplish, and I think that would be bad for 
the alliance.
    Senator Young. I am grateful for your thoughts. Thank you, 
sir.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. This has 
been very, very helpful. Thank you to all three of you.
    So we have spent most of our time here questioning you 
about asymmetric threats presented by Russia and other 
competitors to the alliance. We have not spent a lot of time 
talking about the threat of Russia marching across a border. 
And yet, we are still all stuck in this world in which we 
assess the contributions of both the United States and our 
partners through their spending on conventional military means. 
We have talked around this a bunch, and I maybe am just going 
to try to rephrase the question that has been asked to you in 
pieces.
    Either NATO is a comprehensive mutual defense treaty or it 
is not. And most of what we are doing with our European 
partners to stand up capacities against all these other threats 
we are doing outside of the technical confines of NATO. Much of 
what Europe does on counterterrorism initiatives, on energy 
independence initiatives it does through the European Union, 
for instance, or it does through bilateral relationships and 
conversations between member states and the United States.
    And so I guess the tough question is it seems like this is 
a moment in which we have to either fundamentally rethink all 
of the things that need to be inside the NATO umbrella and then 
come up with an assessment as to whether a country is measuring 
up, or we need to just say, you know what, listen is going to 
be a conventional military alliance that is going to make sure 
that nobody marches an army across a border and we are going to 
work on all this other stuff in a variety of other ad hoc 
manners.
    For instance, the propaganda war is something that Senator 
Portman and I spend a lot of time thinking about, and so do 
lots of countries in Europe. In fact, many countries in Europe 
spend a lot of money, spend a lot of resources to try to fight 
back against Russian propaganda. But nowhere do we assess those 
contributions when deciding whether they are adequately doing 
their duty as a member of the transatlantic alliance, which 
makes me think that we are really not serious about this 
alliance actually meeting the multiplicity of threats that are 
presented to us.
    I mean, are we not at a moment where you have to really 
fundamentally rethink what is inside NATO, what counts as a 
contribution, or just admit that NATO is going to address a 
fairly narrow and lingering conventional military threat?
    Ambassador Burns. I think what you are saying, Senator--and 
I agree with it--is that we have to have a strategic 
relationship with Europe. And part of that relationship, as it 
has been since 1949, providing for the security of the European 
countries and us, is going to be primarily through NATO. Part 
of that is going to be primarily through the European Union 
because, as you know, a lot of the capacity on the cyber side, 
on trade and sanctions side is going to be in the EU, and the 
Europeans will insist that we work through the EU on those 
issues. Not every member of NATO is a member of the European 
Union. And so we have to have a combined strategic alliance 
with both. We have a formal treaty with NATO, but we have a 
very close interlocking relationship with the EU.
    That is why in my judgment the problem that we have right 
now is that the President has talked down NATO and diminished 
NATO. He has also described the EU, as everyone has said, as 
the foe of the United States. It is the reverse.
    And so you need two senior American ambassadors in Brussels 
working together on both of those institutions to do everything 
that you have just suggested, which is everything under the sun 
to protect the United States, working with Europe and to 
advance our interests. It is institution-based.
    Ambassador Haass. I agree it is institution-based, but let 
me make one other point.
    I would not offer offsets, if that is what you are getting 
at, Senator. I would say the military dimension of European 
security and common U.S.-European effort is necessary but not 
sufficient. So I think it is important for the purpose of a 
NATO alliance, which has a political but, above all, a military 
dimension, that there is sufficient effort there.
    I think we have also got to work with Europeans on the full 
range of other threats to our common welfare, be it economic, 
cyber, counterterrorism, health, what have you, but I would not 
say it is okay to only spend 1 percent on defense because you 
are doing all this other work on other things. I would say you 
ought to be spending more on defense and doing all these other 
things not as a favor to us but as a favor to yourselves. It is 
the same argument, the mirror side of it. And I would not put 
it in NATO if you do not have the right personnel. NATO has got 
more than enough on its hands or on its plate doing what it is 
meant to do. But you need to have some people who take a step 
back and look at the totality of these relationships.
    Senator Murphy. I understand, but when we have a measurable 
means of assessing conventional military threats and an 
unmeasurable means of assessing non-military threats, then we 
tend to have our conversations only in the place that we can 
measure. And so we do $4 billion of European Reassurance 
Initiatives, and none of that money goes to energy 
independence. And yet, we harangue the Europeans for not being 
more serious about breaking their dependence on Russian oil and 
gas.
    So I just think this is a moment in which we need to talk 
about the way in which we measure contributions to NATO and the 
way in which that incentivizes us to continue to have this 
overly militaristic view of the capacities of the alliance.
    Dr. Sloan. If I could just add to that perspective. Back in 
the 1980s when the Congress insisted on an allied commitments 
report from the Defense Department every year, at one point the 
Defense Department decided to include in what the European 
allies were asking to have put in that report, and that is 
development assistance. And the Congress came back and said no, 
no, no, that is not what we want. We want to know only about 
military efforts.
    So there has been some resistance to counting things that 
actually do contribute to security. And I think what you have 
raised is a very important point and that is that other 
contributions other than military ones need to be included. And 
the United States makes important contributions to security 
that are not military contributions. So I think it is wise to 
try to broaden our perspective.
    One of the wild cards in this equation is the relationship 
between NATO and the European Union. It has never been 
institutionally easy. It has gotten better, and the Ambassador 
certainly experienced that in his time in Brussels. But it is 
something that needs to get better, and I think it is headed in 
the right direction now.
    Senator Murphy. Thank you.
    The Chairman. Senator Risch.
    Senator Risch. Thank you very much. Gentlemen, thank you.
    We heard Mr. Haass' view of where we ought to be in 
thinking about where we are going in Afghanistan. Mr. Burns, 
Mr. Sloan, I would like to hear your thoughts on that same 
issue hopefully in a little more of an executive summary 
because I have got a couple of other issues I would like to 
explore. Mr. Burns?
    Ambassador Burns. Thank you, Senator.
    First, I think the President's appointment of Ambassador 
Khalilzad is very positive. He knows the country.
    We appear to be heading to a situation where we have to 
promote some kind of diplomatic discussions between the Taliban 
and the Ashraf Ghani government. That makes sense for us. I did 
not believe in this for a long time when I served in the Bush 
administration. I believe in it now, 17 years in, a lot of 
Americans dead, 2,400 Americans dead, a lot of wounded, allied 
losses. We cannot win the war conventionally. So we have got to 
have a combined military presence, which we have, and the 
allies are going to stay with us until we leave and they have 
got the money to do it. But we have to have a diplomatic side 
to this, and I think Ambassador Khalilzad is going to be very 
important in developing that for President Trump.
    Senator Risch. Thank you.
    Mr. Sloan.
    Dr. Sloan. I think I agree with the general assessment. It 
is very difficult for our country to admit that we have not won 
when we have dedicated so much effort, lost so many lives for 
something like Afghanistan. But it is something that we need to 
consider, and that is how as a nation we bring ourselves to the 
point to acknowledge that this war is not winnable in 
traditional terms. And so it is a huge political problem as 
much as a technical issue of exactly what kind of presence and 
efforts we maintain in Afghanistan. But until we get that 
national consensus, I think that it will be very difficult for 
any President and any Congress to decide exactly what to do. I 
think building some kind of national consensus behind the idea 
of exactly how we do shape the future of our policy toward 
Afghanistan is an important first step.
    Senator Risch. I appreciate that.
    Let us turn to Syria for a minute, starting with you, Mr. 
Haass. Again, hopefully in an executive fashion, if you would 
give me your same assessment.
    I think all of us are very troubled with what we see coming 
in the future in Syria. There is a bloody conflict coming there 
that is going to be painful for everyone to watch, let alone 
experience. And there is not really any discussion in 
Washington going on about what we are going to do about this. 
Are we just going to stand by and watch it, or are we going to 
send a letter of protest? What are we going to do?
    So, Mr. Haass, briefly can you tell me where we ought to go 
and what your thoughts are on that?
    Ambassador Haass. Senator, if there ever were good options 
in Syria, they are no longer around. The moment I think that 
there was a chance for ouster of Bashir al-Assad has long since 
passed. I think a lot of this area is going to be taken by the 
combined Russian, Iranian, Syrian effort. So I think our focus 
ought to be on how do we protect as many lives as possible, how 
do we create whether it is a safe area or some area where 
people can be protected. But I do not think at the moment I can 
sit here and make the case that if we were to intervene 
militarily directly, we could have results that would be 
commensurate with the risks and costs. I think that day has 
passed.
    Senator Risch. Mr. Burns.
    Ambassador Burns. Three quick points.
    One, maintain the U.S. troop presence. It is the only 
leverage we have.
    Number two, a diplomatic initiative. And I just lauded the 
appointment of Ambassador Jim Jeffrey. He is as good as it 
gets. He knows the region. We have to get in the game 
diplomatically almost to cut our losses but to retain American 
influence.
    And number three, continue the very generous assistance of 
the Congress and the American people to refugees. I would 
respectfully say that the administration should now determine 
that we need to take in more Syrian refugees, do our share as 
the Canadians and Europeans are doing, because it is a crisis 
with 12 million Syrians homeless out of a population of 22.4 
million.
    Senator Risch. Mr. Sloan.
    Dr. Sloan. I basically endorse the Ambassador's three 
points. I think that that kind of an approach is critically 
important. Dealing with the refugee issue is obviously 
something that is in the interests of the United States and 
also in terms of the interests of our European allies and 
stability in Europe because it has been the flow of refugees, 
because of Syria and ISIS, into Europe that has led to the 
strengthening of the radical right populist parties that have 
taken advantage of the fear of this process of migration and 
created instability for a number of our European allies.
    Senator Risch. Thank you very much.
    My time is almost up. I wish I had more time to explore 
this.
    But I say this with all due respect, and I mean it. I think 
that all of you have underestimated the difficulty that this 
Turkey situation is causing us and going to cause us with NATO. 
And I hope I am wrong on that, but so long as Mr. Erdogan is 
there and hopefully not after he is gone, this is a serious, 
serious problem. Particularly when you look at the Turks and 
their long, long adverse history with Russia and they are 
playing footsy under the table with Russia, this is a very 
difficult problem.
    Thank you, Mr. Chairman.
    Dr. Sloan. Could I just very briefly since I have not had 
the opportunity to say anything about Turkey? I think what you 
are saying is incredibly important, Senator. And I think we 
have to recognize in the United States and the Europeans have 
to recognize that we bear some responsibility for what has 
happened in Turkey. The European Community and the European 
Union maintain the fantasy tale that Turkey could become a 
member of the European Union while at the same time most 
Europeans did not believe this would ever happen. And the 
United States continued to support that objective when we 
perhaps should have been looking at ways to create or to 
encourage Turkey to take a different role that would be more 
autonomous with the relationship with the European Union, but 
not to put all of our eggs in the basket of Turkey joining the 
European Union.
    I think we should look back at the history here, and as 
both of my colleagues have said, we need to be patient with 
Turkey in terms of not moving away from her any further than is 
necessary and holding out the hope for the future and working 
toward a future in which a different government will be in 
place in Turkey.
    Senator Risch. My view is they are moving away from us as 
opposed to us moving away from them. So thank you very much.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    And thank you all very much, the panelists here today. I 
think it has been very enlightening--your comments on where we 
should head and where we should really rethink some of the 
policies we have had in the past.
    The chairman and several other members traveled to 
countries over the Fourth of July right on the border of 
Russia, and this was just before the Helsinki Summit took 
place. And the countries, specifically Finland that was not a 
part--these countries and all their leaders were very worried 
about the approach of this administration and what President 
Trump was going to do. And one of the things that was worried 
about was President Trump going to announce no expansion of 
NATO. And I know, Mr. Haass, I think you said earlier--and I 
wanted to explore this. You said you did not think we should 
expand NATO now. But if you announce that publicly, does that 
not play into Putin's threat and the feelings that these 
countries have? What are you thinking on that?
    Ambassador Haass. I do not feel there is any need to make 
an announcement. That would be inconsistent with the 
enlargement process. I simply do not see that Georgia or 
Ukraine now or any time soon are going to meet the 
requirements. So I think it is basically a moot point for now 
and for the foreseeable future.
    Senator Udall. Ambassador Burns and Mr. Sloan, please.
    Ambassador Burns. We are a European power. We have been 
since the late 1940s. So we are the key country. We need to 
signal that NATO's door remains open to further enlargement. It 
is well understood that Ukraine and Georgia do not meet the 
requirements right now. It will be a long time. If you close 
the door, then you give Putin an opportunity to take the kind 
of measures that he has taken against both of those countries.
    Senator Udall. Mr. Sloan, you wanted to say something.
    Dr. Sloan. Yes, I would.
    It is very important to keep that door open even though I 
agree that Ukraine and Georgia are not at this point ready for 
membership in terms of what NATO has insisted on, the 
requirements for membership in the past.
    But I would comment on Finland and Sweden, and that is if 
both Finland and Sweden decided that they wanted to apply for 
membership, they would be in in a day. That is an exaggeration, 
but we would welcome them in with open arms I am quite sure. 
They already are cooperating, as you know, so intensely with 
NATO, and it is because of their enhanced fears of what Putin 
is up to, what he might do against them. And so in terms of 
that enlargement, if they decided politically internally that 
they wanted to join, I am sure that NATO countries would 
welcome them in.
    Senator Udall. And those countries, by the way, are 
expending I think above the target that we have talked about in 
terms of military spending, which is very impressive.
    Mr. Haass, I think you made a very important statement when 
you talked about this not being an all or nothing response to 
Russia. I was at a dinner last night with Ambassador Pickering, 
and he said something very similar. And he talked about the 
kinds of things that we have worked on over the years with the 
Russians. You mentioned one in terms of arms control. We were 
able to work with the Russians in terms of Iran on the JCPOA 
and all of those kinds of activities.
    I mean, how do we proceed on these issues where you have 
these election threats and all of the other things that are 
going on? What additional role do you think Congress should 
play in this, and is there an opening for us to get involved in 
this?
    Ambassador Haass. I would say two things.
    One, when I was last in Russia, which was maybe 6 months 
ago, it had been several years since there had been a 
congressional delegation in Russia. Since then, there has been 
one but I think it was simply one party.
    I think the resumption of, if it can be worked out, a 
bipartisan CODEL so the Russians hear that it is across the 
American political spectrum, here are our concerns with what 
Russia is doing in its various aspects of its foreign and 
domestic policy, I think that would be good. I think they need 
to hear these things. We are not against the relationship with 
Russia, but we are against these Russian behaviors. And to the 
extent they got a sense that was broadly and deeply shared in 
the American political spectrum, it would be good.
    Second of all, I would just say we need to be mindful of 
sanctions in the following way. If we introduce sanctions for 
all sorts of behaviors, we have got to make sure we retain some 
flexibility to keep the relationship open. We cannot preclude 
areas of limited cooperation. This almost is an anti-linkage 
policy. I do not think we want to get in a situation with 
Russia that because of what you are doing on A, B, and C, we 
preclude potential cooperation on D, E, and F. So I think we 
have got to be very narrow and targeted in our sanctions.
    I think the best we can hope for, as we look toward the 
future with countries like China and Russia, is we are going to 
have relationships. We are going to have big areas of 
disagreement or even worse, but we are still going to have some 
areas of selective interaction, even conceivably cooperation. 
So we have got to be mindful, and when we introduce penalties, 
we do not preclude the selective areas of cooperation.
    Senator Udall. Would you both respond to that?
    Ambassador Burns. I would agree that both President Trump 
and the Congress need to keep the lines open to Moscow. We need 
to be talking to them. What is the agenda? North Korea, Syria, 
Iran, Afghanistan, the future of arms control. New START that 
President Bush negotiated expires in 2021, and so we are going 
to have to deal with the Russians. At the same time, we are in 
containment mode through our sanctions and troop presence in 
Eastern Europe and we have got to contain Putin and his 
generation until they pass from power.
    Dr. Sloan. Senator, ironically from the Cold War era, there 
is a formula that I think is still relevant today. It was 
called the Harmel Formula. In those days, it was called the 
formula for defense and detente. You manage your defense to be 
able to deter the Soviet Union in those days and you try to 
promote detente between the east and west.
    Today it is more of a defense, deterrence, and dialogue. 
And I think the United States and its NATO allies pursue that 
kind of a formula wisely and making sure that we do not let 
Russia get away with its activities that are contrary to our 
interests. I think that is a good formula to work with in the 
future, as well as it was during the Cold War.
    Senator Udall. Thank you. And thank you for your 
courtesies, Mr. Chairman.
    The Chairman. Yes, sir.
    Senator Rubio.
    Senator Rubio. Thank you.
    I want to address head on sort of this strain of thinking 
among some that our challenges with Russia are the result of 
something we did, that we offended them in some way and if we 
were just nicer to them, Putin would be more cooperative. 
Perhaps you disagree. That is why I want to ask all three of 
you. You spend a lot of time on this.
    It is my view that by and large that Putin wants to be a 
great global figure on top of sort of deep, historical 
rationale for both Russian nationalism and sort of the trauma 
of losing its great power status at the end of the collapse of 
the Soviet Union. And domestically too, by the way, being able 
to argue that he is an indispensable global leader and that 
Russia matters again allows him to paper over some of the other 
difficulties in Russian society and the like.
    And so the truth of the matter is that in Vladimir Putin's 
view of the world, he is in a direct geopolitical competition 
with the United States, and the only way he wins is if we lose. 
In essence, the only way he has more influence and power and is 
bigger and greater is if America has less.
    Is that an accurate assessment of what we are dealing with?
    Ambassador Haass. I think we can have an argument about 
whether NATO enlargement, what we did with Libya and all that 
contributed to Russia's alienation. But I am not going to fight 
your basic point. We are where we are where we are. And it 
clear to me that Mr. Putin has rejected as a goal Russia's 
integration in what we would call the liberal world order. 
Indeed, I believe he has rejected what we would call the 
liberal world order. He seeks a very different place for 
Russia. He seeks a very different world. And I think we have to 
see him in most situations now not as a partner, but as someone 
who has a very different agenda which is inconsistent with 
ours.
    Ambassador Burns. Well, I am going to be in violent 
agreement with you. Putin caused this strategic mess that he is 
in and that we are in with him. We gave Russia every chance--
President George H.W. Bush, President Clinton in the 1990s with 
a lot of aid from the United States and a lot of friendship to 
see if democracy would work. We were right to expand NATO. The 
Russians did not like it, but they did not end the relationship 
over that. They ended it over the perception that the United 
States was supporting the Rose Revolution in Georgia and the 
Orange Revolution in Kiev back during the George W. Bush 
administration, in which I served. I think that was the issue 
that turned Putin against us, but I do not blame us. I am glad 
we supported those democratic efforts in Georgia and Ukraine.
    So now we are stuck in Putin's zero sum world, as you say, 
Senator, and we have to compete. And we are a lot stronger and 
we will emerge if we defend our allies in Eastern Europe, 
defend NATO enlargement. We will win this without a war because 
he is not going to attack NATO. At some point he passes from 
the scene in the next decade or so. We have just got to have 
the courage to stay with our policy of containment until that 
happens.
    Dr. Sloan. Can I respond briefly as well?
    There are those who say that what NATO and what the United 
States did in enlarging the alliance was provocative and is 
responsible for a lot of Putin's behavior. I really reject that 
completely because even though I think what NATO did was 
provocative in one respect, and that was it offered an 
alternative political approach for countries that wanted to 
become members of the alliance and wanted to move away from 
being controlled by the Soviet Union. For Putin, this was, I 
think, threatening.
    I think he understood, has always understood that NATO is 
not the kind of alliance that will attack Russia. I do not 
think that he has any fear of NATO militarily, but he does fear 
that countries on Russia's border becoming liberal democracies, 
Western democracies will present a model of governance that 
will threaten his power and his ability to sustain his control 
in Russia.
    Senator Rubio. A quick point I want to make. There is a lot 
of concern about adding countries could get us into a war. We 
have no obligation under the NATO treaty to come to the defense 
of an aggressor. The NATO treaty is and our obligations are 
almost exclusively defensive in nature. Is that not correct?
    Ambassador Burns. That is how Article 5 is written. First 
of all, there is no obligation to do anything under Article 5. 
You have to assess what you want to do. But it is a defensive 
article. It is not an offensive article.
    Senator Rubio. In that context about Putin in general, as 
we talked about the zero sum game, he is, though, a cost-
benefit analyzer. He makes decisions on the basis of--that is 
the reason why these influence campaigns have provided a 
benefit that exceeds the cost.
    Is there not then wisdom, for example, in putting in place, 
for example, a cost ahead of future interference to say this is 
the price you will pay? Sanctions are one thing. You have 
already paid that price. It is another thing is to say this is 
what will happen, sanctions and otherwise, in the future if you 
do X, Y, or Z so that he knows ahead of time what the price 
will be and theoretically he would want--or in reality, you 
would want that price to be higher than the benefit he thinks 
he derives. Is there not wisdom in deterring a future influence 
campaign by putting in place predetermined penalties he knows 
he will pay so he knows exactly what the price point is?
    Ambassador Haass. I think the answer to that is yes in part 
because let us be honest about the context he is making his 
decisions. He made a heavy investment in Ukraine. His cost-
benefit paid off. He made a heavy investment in Syria. His 
return on investment--if we did that on Wall Street, we would 
be extraordinarily happy. And his active measures in various 
elections again have paid off. So he has taken three fairly big 
geopolitical risks. In all three, I would say, his benefits 
have outweighed his costs. So in order to change that thinking, 
we have to persuade him that if he were to take another big 
risk again, this time there would be a different outcome. So it 
cannot leave a lot of discretion.
    And quite possibly Congress will have to take the lead here 
given the statements of this President, given his views of 
Russia. Plus I do not know--maybe you do--what he communicated 
in the one-on-one in Helsinki. So I think the more that we can 
be explicit about the cost, the more likely we are to deter.
    Ambassador Burns. Can I just say, Senator, the problem we 
have had since 2016 is we have not been clear about what the 
penalty is or shall be? And so if part of the bill that you may 
be referring to or the draft bill that I have read would set 
out very clearly what the penalty is--Putin is a rational 
person. He is opportunistic but rational. He will understand 
that those are going to be the penalties. We have got to make 
sure that he perceives that we are serious about it. So I do 
favor that kind of approach.
    The Chairman. And if those penalties affect Europe 
adversely? I mean, we are talking around something. You 
understand there is no way to hit Russia without hitting 
Europe. So you are saying hit Europe too.
    Ambassador Burns. I am not saying that. I think there are 
ways to hit Russia with further sanctions against Russian 
oligarchs, against Russian economic interests, if they 
interfere in the midterms or in 2020, that are separate from 
the kinds of sanctions that were being talked about on the 
Nordstream 2 issue.
    Ambassador Haass. We also want to look at Russia's 
participation in the global financial system. Again, we want to 
narrow them rather than have Europe to the extent possible--we 
do not want Europe to be collateral damage.
    The Chairman. We are probably going to settle this issue 
over the next 3 weeks. Otherwise, there is no reason to settle 
it. I think everybody would agree.
    So just again, as we move down the road, I am all for the 
kinds of things that are being discussed unless we are hurting 
our friends also. I think it is easy to throw things around 
here until you get into the specifics. Specifics matter because 
we are going to be passing laws. Especially when you start 
talking about a financial system, you are not just talking 
Russia. So we have to actually pass things that have words in 
them not just tilts towards things. And I hope that you will be 
helpful to us over the next 3 weeks also.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    I would like to turn to an issue which I think we should be 
talking about, which is nuclear arms control, so that we 
reflect the fact that even at the height of the Cold War, the 
U.S. and the Soviet Union were talking about these issues. And 
I would like to, if I could, just turn to the New START treaty 
and its central limits and the desirability of trying to have 
that conversation so that we have an extension of the New START 
agreement beyond 2021 so that we do not wind up with no 
replacement in place and an unnecessary set of expenditures 
that are made on both sides that could be put to better use.
    So, Ambassador Burns, Ambassador Haass, I would love to get 
your reflections on that.
    Ambassador Burns. Senator, thank you.
    You can see in the press there is an ongoing debate, as 
there should be, in the Trump administration about what we do, 
several different options being discussed publicly.
    No question. This is one of the reasons why we have to have 
an open channel to the Russians. As we compete with them and 
sanction them in some places, we have got to have a discussion 
about stability on the nuclear arms front.
    The easiest solution that I think is available to us for 
President Trump would just be to extend the current treaty and 
to give us some time to stabilize that part of the relationship 
because we have a very disruptive agenda with the Russians in 
other places. But that would be my recommendation at this 
point.
    Senator Markey. Ambassador Haass, could you add in any 
comments you might have on the potential deployment of 
hypersonic weapons that we should be talking about with the 
Russians, the INF Treaty, the Russian violation of that treaty 
and what our actions should be in response? There is some 
discussion on this side that perhaps we should pull out of the 
INF Treaty. What would you recommend for New START, for these 
hypersonic weapons, for INF in terms of the United States and 
Russia engaging in constructive dialogue apart from all of our 
other disagreements?
    Ambassador Haass. I do not want to represent myself as more 
of an expert than I am on this.
    But, one, I agree. The simple extension of New START is the 
least complicated, least--it would be positive. It is the most 
doable or realistic option at this point. I do not think this 
is a moment where you want to get ambitious given the overall 
state of the relationship.
    With INF, given Russian deployments, again I would rather 
not toss the treaty out. My instincts are if we have issues 
with compliance, let us press the issues of compliance. It is 
one thing to modernize the American strategic or nuclear 
arsenal. It is something else to go ahead with deployments that 
would not be part of a normal modernization program simply in 
response to what we see as Russian noncompliance or violations 
of existing agreements. That is an area of defense spending I 
would not necessarily encourage. So my going-in position 
dramatically would be to look whether we could bring about what 
we consider to be compliance. If not, then I think it is a fair 
question to look at what our options are and whether our 
response is new deployments or we want to respond 
asymmetrically.
    Senator Markey. Again, if I can come back to you, 
Ambassador Burns, just to get your reflections upon how 
important it is to get ahead of these hypersonic weapons before 
we get into an additional race on those issues and the INF 
Treaty from your perspective, how important is it, what would 
you recommend that we do in order to make sure that we do not 
go backwards on the already existing nuclear arms control 
agreements.
    Ambassador Burns. Thank you, Senator.
    On INF, it gets back to Senator Corker's very good 
question. Where do you put the balance? Again, we need the 
Europeans to be with us on this. I think that treaty--President 
Reagan signed it--still makes sense for us. The Russians are 
exceeding it. We need to call them on that. We are going to 
have to have European support. So that gets back to your 
question, Mr. Chairman, if you sanction the Europeans, you are 
reducing the probability of success.
    Senator Markey. Which NATO countries would we put at most 
immediate risk if we did pull out of the INF Treaty?
    Ambassador Burns. Well, Poland certainly, the Baltic 
States, Germany, the states in the east. They are being greatly 
affected.
    I also just wanted to add this one point, Senator. Your 
question is going to have to be expanded to artificial 
intelligence, quantum computing----
    Senator Markey. Could you just move to hypersonic weapons, 
please, and how you view that as a potential threat moving 
forward?
    Ambassador Burns. I am not an expert on hypersonic weapons. 
I cannot give you a decent answer to that question.
    But I just wanted to say with China and Russia, we have to 
have an expanded arms dialogue in these new technologies that 
if they get out of control will also be competitive spaces.
    Senator Markey. Mr. Sloan, hypersonic weapons?
    Dr. Sloan. No.
    Senator Markey. Okay, great. Thank you all so much. Thank 
you for your service.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman, for the 
opportunity. I just want to wrap up some things. I have heard 
some interesting comments here today, and so I just want to get 
the expertise of the panel.
    So what happens when a nation is attacked and does not 
respond? What is the likelihood of the aggressor? What are they 
likely to do?
    Ambassador Haass. Senator, is that a rhetorical question?
    Senator Menendez. No. It is a question.
    Ambassador Haass. I mean, obviously, it will simply 
encourage greater adventurism.
    Senator Menendez. Anybody disagree with that?
    Ambassador Burns. I very much agree.
    Dr. Sloan. I do too.
    Senator Menendez. So I listened to my colleague from 
Kentucky, and I find it interesting. Who is going to fight 
someone who buys your oil? Obviously, the Russians have done it 
to the Ukraine and others. So energy can be weaponized if you 
choose to do so. And I think one of you mentioned that Russia 
has three different tranches, you know, its military might, its 
cyber, and its energy. So if you want to weaponize it, you can 
weaponize it. And we have seen that Russia is willing to 
weaponize it.
    We have seen that Russia has created a series of cyber-
attacks not only against the United States but other Western 
democracies. And from my perspective, very little, relatively 
speaking, has been done in response to that in a way that sends 
a clear and unequivocal message that there is a consequence for 
doing that. And so it will continue to happen.
    So the sanctions legislation--I appreciate some of these 
insights here, and of course, an opening salvo on a legislation 
is never its final version. We are more than willing to tailor 
it in terms of some of the comments the chairman has made. But 
we have not been responsive enough to the attacks that we have 
received as a country, and in any other iteration, we would 
clearly consider it an act of war.
    Let me ask you something. NATO enlargement--it is not any 
willing aspirant. It is any willing aspirant who is capable and 
meets the goals of NATO. Is that a fair statement?
    Ambassador Burns. And that we would all agree by consensus 
to admit them. It is our decision.
    Senator Menendez. Absolutely.
    Ambassador Burns. It is not just that they are capable.
    Senator Menendez. And on this question of Russia and Putin 
that we basically stroked the tiger, at the end of the day in 
the collapse of the Soviet Union, all of those former Soviet 
bloc countries--we had a choice. We had a choice to say those 
who are willing and want to move to a liberal democracy, 
respect for human rights, and rule of law, you are welcome to 
join us. And if not, we would have isolated them actually and 
pushed them back into the possibility of a reconstitution of 
the greater Russia that Putin seeks. Is that not a fair 
statement?
    Ambassador Burns. That is exactly the situation we faced. I 
was President Clinton's special assistant on Russia at the 
time, and that is how he saw it. That is how President Bush saw 
it. That is how President Obama saw it. But 120 million East 
Europeans living between Russia and the West and we had to 
bring them into NATO and the EU simultaneously to cement them 
in the West. Wilson talked about this. FDR struggled with it 
and failed at Yalta. We succeeded, Republican and Democratic 
administrations together in a unified policy over about 20 
years. I have no regrets about this. I think this was a very 
positive thing to do.
    Dr. Sloan. Could I add to that? In the early 1990s when I 
was working for Congress at CRS, I wrote a report for the 
Congress in which I asked the question without being an 
advocated because CRS people are not supposed to be advocates, 
but without being an advocate, I said how can the NATO allies 
say no to countries that they have been trying to convince all 
this time, these decades that they need to move toward 
democracy and become Western countries, and how can we say no 
to them now? It was a difficult question for the United States 
and the European allies. I think they made the right answer, 
the right choice. We did.
    Senator Menendez. Let me ask you one last set of questions.
    If someone commits or some entity commits a chemical attack 
upon another citizen in another country, would we not consider 
that an act of terrorism?
    Ambassador Haass. The question came up before, and I think 
it is state sponsorship or however you want to--state conduct. 
You can get into definitions, but the bottom line is we ought 
to take it for what it is, which is an unacceptable violent act 
and we ought to think about how we respond.
    Senator Menendez. And if someone supports or a government 
supports another entity that ultimately uses chemical weapons 
against its citizens, is that not an act of terrorism?
    Ambassador Haass. Absolutely. U.S. policy has been to hold 
terrorists responsible or those who in any way aid, abet, or 
facilitate. We do not draw distinctions between terrorists or 
the government.
    Senator Menendez. Reading the definition of the law, 
international terrorism means terrorism involving citizens or 
the territory of more than one country. And the term 
``terrorism'' means premeditated, politically motivated 
violence perpetrated against noncombatant targets.
    So it seems to me that the designation that we gave North 
Korea in this regard was appropriate, and it seems to me that 
based upon the actions that Russia has taken in both Syria, as 
well in chemical attacks against citizens on foreign soils, 
that it falls squarely within the ambit. Whether or not it is 
the right policy is another question, but certainly the law 
seems to be rather clear to me.
    Ambassador Burns. And I would say if you look at the UK 
nerve agent attack, it fits that description. It also fits the 
use of chemical weapons elsewhere.
    Senator Menendez. Thank you all for your answer.
    Ambassador Haass. Can I just quickly say I think, though, 
you asked the right question whether it is the right policy, 
and we would want to look at the implications or consequences 
of it and whether it would serve the totality of our aims, 
given what we are trying to accomplish with Russia, also what 
we are already doing. What would be additive about this, and 
would we welcome what was additive about it, again, given 
everything else----
    Senator Menendez. I would just like to see us be far more 
forward leaning in response to the attacks that we have 
received. And Putin, as you have said so aptly, Dr. Haass, is 
someone who calculates. You know, at the end of the day, his 
calculations have payoff. He gives speeches. He tells you his 
road map and he pretty much follows his road map. It seems to 
me that we need to have him understand that the calculation is 
wrong.
    Ambassador Haass. And the most important aspect of his 
calculation is what he does and how we will react. What will it 
mean for his own political position at home? Putin, above all, 
is about Putinism and his domestic political base. And what we 
have to think about are what would be the things we would say 
or do that would raise questions in his mind about his domestic 
endurance. That I think gives us as much leverage as anything.
    The Chairman. Well, this has been a great hearing and I 
thank you for being here.
    I mean, let us face it. This dilemma that the ranking 
member is raising and that we have to deal with is--you know, 
the Russians and Putin are willing to do things that we are 
not. I mean, we are not for logical reasons, for rational 
reasons, but they do assassinate people in other countries. 
They use the military to invade people, and they use their 
military to intervene in places like Syria. Let us face it. We 
intervened to a degree but not to a degree to have an effect. 
So we try to solve this problem with sanctions.
    They are able to do things surgically. They interfere with 
our elections directly. They create a frozen conflict in 
Georgia directly. They take Crimea directly. They create 
instability in eastern Ukraine directly. They are intervening 
in Syria directly. We are not willing to do those things, at 
least not to the degree that they are for good reasons.
    And so the tool we use here is sanctions, and sanctions are 
not surgical. They end up affecting lots of other people, 
including ourselves I might add. Including ourselves.
    So I agree with the sentiment here, strongly agree. And let 
us face it. The exacerbating problem is we have an 
administration that will not even use rhetoric in an 
appropriate way to push back. So it frustrates us. We end up in 
some cases I think doing things that even go beyond what we 
would normally do because we have an administration that we 
know otherwise is not going to do some of these things, not 
even rhetorically. And so here we are in this situation where 
we are trying to react in a manner that supports democratic 
freedoms and human rights. And I do agree 100 percent with 
everyone here other than maybe one Senator, that NATO is about 
promoting democracy also and good governance, and there are 
other things that come with NATO membership.
    So we are in a challenging place here, exacerbated by the 
role that the administration is not playing or that they are 
playing in helping destabilize Europe. And we have got to 
figure out how we react in a manner that does not cut our own 
nose off to spite our face and does not blow back on our 
friends which, by the way--let us think about this. I mean, 
blowing back on our friends--even though it may be painful to a 
degree to Russia, blowing back on our friends actually inures 
to Putin's benefit. Right? It inures to Putin's benefit.
    So again, I just want us to be thoughtful as we move down 
this road. We do things that have words and have impact, and we 
did a pretty good job on CAATSA. We made some mistakes there. 
We did a pretty good job, though. But let us face it. That was 
also in reaction to the fact that we have an administration 
that we did not feel would take appropriate steps against 
Russia. So we find ourselves in a very unusual place.
    I do want to say that as it relates to having this group of 
people throughout our democracy that have knowledge that have 
served, that in some cases have access to intelligence, I hope 
that by virtue of you being here today and testifying, that the 
American people can see the importance of having people that 
are not just serving in the Senate, that are not just serving 
in an administration, that have knowledge that is helpful to 
all of us and will serve in future administrations to make our 
country even stronger. We thank you for being here.
    And with that, the meeting is adjourned.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
